<html>
<title> - MUSIC POLICY ISSUES: A PERSPECTIVE FROM THOSE WHO MAKE IT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







       MUSIC POLICY ISSUES: A PERSPECTIVE FROM THOSE WHO MAKE IT

=======================================================================

                                HEARING

                               before the
                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES


                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 26, 2018

                               __________

                           Serial No. 115-50

                               __________

         Printed for the use of the Committee on the Judiciary










[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]












        Available via the World Wide Web: http://www.govinfo.gov 
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
32-477                    WASHINGTON : 2018                 
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JERROLD NADLER, New York
    Wisconsin                        ZOE LOFGREN, California
LAMAR SMITH, Texas                   SHEILA JACKSON LEE, Texas
STEVE CHABOT, Ohio                   STEVE COHEN, Tennessee
DARRELL E. ISSA, California          HENRY C. ``HANK'' JOHNSON, Jr., 
STEVE KING, Iowa                         Georgia
LOUIE GOHMERT, Texas                 THEODORE E. DEUTCH, Florida
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
TED POE, Texas                       KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC L. RICHMOND, Louisiana
TREY GOWDY, South Carolina           HAKEEM S. JEFFRIES, New York
RAUL LABRADOR, Idaho                 DAVID CICILLINE, Rhode Island
BLAKE FARENTHOLD, Texas              ERIC SWALWELL, California
DOUG COLLINS, Georgia                TED LIEU, California
RON DeSANTIS, Florida                JAMIE RASKIN, Maryland
KEN BUCK, Colorado                   PRAMILA JAYAPAL, Washington
JOHN RATCLIFFE, Texas                BRAD SCHNEIDER, Illinois
MARTHA ROBY, Alabama                 VALDEZ VENITA ``VAL'' DEMINGS, 
MATT GAETZ, Florida                      Florida
MIKE JOHNSON, Louisiana
ANDY BIGGS, Arizona
JOHN RUTHERFORD, Florida
KAREN HANDEL, Georgia

          Shelley Husband, Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel 
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
                            C O N T E N T S

                              ----------                              

                            JANUARY 26, 2018
                           OPENING STATEMENTS

                                                                   Page
The Honorable Bob Goodlatte, Virginia, Chairman, Committee on the 
  Judiciary......................................................     1
The Honorable Jerrold Nadler, New York, Ranking Member, Committee 
  on the Judiciary...............................................     2

                               WITNESSES

Mr. Aloe Blacc, Musician, Singer, Songwriter
    Oral Statement...............................................     8
Mr. Mike Clink, Record Producer
    Oral Statement...............................................    12
Mr. Booker T. Jones, Songwriter, Artist, Recording Artist, and 
  Arranger
    Oral Statement...............................................     7
Mr. Tom Douglas, Songwriter
    Oral Statement...............................................    10
Mr. Neil Portnow, President, Recording Academy
    Oral Statement...............................................     5
Ms. Dionne Warwick, Recording Artist
    Oral Statement...............................................    13

 
       MUSIC POLICY ISSUES: A PERSPECTIVE FROM THOSE WHO MAKE IT

                              ----------                              


                        FRIDAY, JANUARY 26, 2018

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The committee met, pursuant to call, at 2:00 p.m., in 
Constantino Room, Fordham University School of Law, 150 West 
62nd Street, New York, New York, Hon. Bob Goodlatte [chairman 
of the committee] presiding.
    Present: Representatives Goodlatte, Issa, Gohmert, Marino, 
Farenthold, Collins, Gaetz, Nadler, Cohen, Johnson of Georgia, 
Deutch, Jeffries, Cicilline, Lieu, Raskin, and Demings.
    Staff Present: Shelley Husband, Staff Director; Branden 
Ritchie, Deputy Staff Director; Joe Keeley, Chief Counsel; 
Kathryn Rexrode, Communications Director; Carlee Tousman, 
Clerk; Jason Everett, Minority Counsel; David Greengrass, 
Minority Counsel; and Perry Apelbaum, Minority Chief Counsel 
and Staff Director.
    Chairman Goodlatte. The Judiciary Committee will come to 
order. Without objection, the chair is authorized to declare 
recesses of the committee at any time.
    We welcome everyone to this afternoon's hearing on ``Music 
Policy Issues: A Perspective from Those Who Make It.'' I will 
begin by recognizing myself for an opening statement.
    Our Nation's copyright laws, and the exclusive rights they 
grant to artists and creators, have made the United States the 
world leader in creativity. We must ensure that status 
continues in the digital age.
    It requires courage for individuals to take a risk and 
transform the ideas in their minds into works of art, musical 
works, literature, software, and other creative forms. Creators 
willing to do so expose themselves to criticism and rejection 
if others do not appreciate their efforts, and they face theft 
if their work is appreciated. We must continue to provide our 
Nation's creators with strong incentives to take these risks, 
so that we can continue to reap the rich benefits our Nation's 
creators provide to our citizens and Nation and the rest of the 
world.
    Today, we focus on music creators on a major weekend for 
the music world. The statutory framework that governs the music 
industry has long been the subject of a number of legitimate 
complaints that it fails to properly recognize and reward 
American music creators. Today's witnesses will highlight how 
the music business has changed over the past decade, resulting 
in a number of policy issues of concern.
    Most, if not all, of these policy issues are the subject of 
pending legislation. These issues include the distinction in 
copyright law between sound recordings fixed prior to February 
15, 1972, and those fixed afterward; the convoluted mechanical 
licensing system that seems to create more litigation and 
paperwork than actual royalties for songwriters; the ability 
for producers, sound engineers, and mixers to be paid for their 
efforts when their works are webcast; and the appropriate rate-
setting mechanisms for the uses of music that are subject to 
compulsory licenses.
    A number of interested parties have worked with the 
Judiciary Committee and its members to draft legislation to 
address these issues and more, most notably, in their order of 
introduction this year, the AMP Act, the Fair Play Fair Pay 
Act, the CLASSICS Act, and the Music Modernization Act.
    I am sure that the witnesses will have thoughts on all of 
these bills, which have been the subject of a number of recent 
letters of support across the music industry.
    Before I turn to our witness panel today, I would like to 
highlight the music industry's unique status as one of the last 
industries subject to Federal rate-setting mechanisms. It is an 
obvious and long-term question whether such overregulation is 
truly necessary. Hopefully, the legislation pending before 
Congress currently will modernize the system while paving the 
way for a day when American music creators can do what 
virtually every other American creator is able to do: set their 
price for the usage of their creations.
    Now it is my pleasure to recognize our host member and the 
ranking member of the Judiciary Committee, the gentleman from 
New York, Mr. Nadler, for his opening statement.
    [Applause.]
    Mr. Nadler. Thank you, Mr. Chairman.
    Let me begin by stating how good it is to be back at my 
alma mater, Fordham Law School. I graduated here a number of 
years ago, I think two buildings ago. [Laughter.]
    Mr. Nadler. This large of a building wasn't here then. But 
it was a great education and a great opportunity for me, and I 
want to thank the school for that.
    And thank you, Mr. Chairman, for holding this hearing in 
New York on music policy issues.
    I would like to welcome everyone to my district, which 
includes virtually every aspect of the music industry. New York 
City is home to thousands of creators, including songwriters, 
performers, and musicians, as well as broadcasters and some of 
the Nation's leading technology companies.
    The issues we are considering today are of great concern to 
the people of the city, and I am glad the committee is here, 
because I firmly believe that this is a place where we can have 
an open dialogue, confront the issues, and forge consensus. And 
I hope that we can have a productive dialogue, because music 
licensing issues are ripe for reform.
    The Judiciary Committee, under Chairman Goodlatte's 
leadership, has been conducting comprehensive review of the 
Copyright Act, and we have heard a lot from music industry 
stakeholders and all sides about the need for change.
    Thankfully, there appears to be growing agreement around a 
number of issues that give us reason to hope that Congress may 
be able to move toward a legislative solution. I have long 
argued that we need to create a uniform system that levels the 
playing field for all radio services and ensures fair payment 
for all artists regardless of when the music was recorded or on 
what medium it is played.
    To that end, I introduced the bipartisan Fair Play Fair Pay 
Act, H.R. 1836, in case anyone is interested, along with 
several of my colleagues who are here today. The bill 
establishes a performance right for AM/FM radio, and it sets 
down a clear marker on the need to resolve the dispute over 
pre-1972 music, which does not currently have protection under 
the Federal copyright laws.
    Under the bill, Internet radio would continue to pay fair 
market value, but now its competitors would, too, since 
satellite radio would no longer be granted a below-market rate. 
And it simplifies the allocation of royalty payments to 
producers and engineers, similar to the AMP Act, H.R. 831, 
introduced by my colleagues Mr. Crowley and Mr. Rooney.
    Since we introduced the Fair Play Fair Pay Act, there have 
been a number of encouraging developments. The National 
Association of Broadcasters and the musicFIRST Coalition are 
engaged in discussions on performance rights, and I am hopeful 
that the parties will continue to negotiate in good faith 
toward a solution that benefits both sides.
    Chairman Issa and I introduced the CLASSICS Act, H.R. 3301, 
an updated pre-1972 provision, to bring these recordings into 
the Federal copyright system. The bill grants equal treatment 
for pre- and post-'72 recordings, guaranteeing fair 
compensation for iconic legacy artists while providing legal 
certainty for digital services.
    This bill is the product of a consensus reached among a 
wide range of stakeholders, including digital services like 
Pandora, SAG-AFTRA, and the American Federation of Musicians, 
the Internet Association, major and independent record labels, 
and multiple artist rights organizations.
    Last month, Congressman Doug Collins and Congressman Hakeem 
Jeffries introduced the Music Modernization Act, H.R. 4706, 
otherwise known as the MMA, to address a number of issues 
governing the licensing of musical works. The bill reforms 
Section 115 of the Copyright Act to create a blanket license 
for mechanical reproduction royalties administered by a single 
entity, which will help ensure proper payments to songwriters 
and publishers. It also establishes a fair market rate standard 
for musical compositions under Section 115 and would repeal 
Section 114(i), which prohibits rate court judges from 
considering sound recording royalty rates as evidence in 
setting performance royalty rates for songwriters and 
composers.
    In addition, it would require judges to be randomly 
assigned for ASCAP and BMI rate-setting proceedings in the 
Southern District of New York.
    The Music Modernization Act is also supported by a wide 
range of stakeholders, including the Digital Media Association 
representing companies such as Spotify and Amazon; the National 
Music Publishers; the PROs; and a number of songwriter advocacy 
organizations, such as NSAI and SONA.
    For the last few years, I have been imploring the music 
community to come together in support of a common policy 
agenda, so it was music to my ears to see--to hear, I suppose--
the unified statement of support for a package of reforms 
issued by key music industry leaders earlier this month. Many 
of these measures, such as the CLASSICS Act and the Music 
Modernization Act, are supported by stakeholders on both sides, 
by digital service providers as well as by music creators. This 
emerging consensus gives us hope that this committee can start 
to move beyond the review stage toward legislative action.
    Now is the time for all parties to come together so that we 
can finally pass meaningful reform. We have a number of 
witnesses here today who will help us in this endeavor. I look 
forward to their testimony, and I yield back the balance of my 
time.
    Chairman Goodlatte. Thank you, Mr. Nadler.
    We now welcome our very distinguished witnesses. As is the 
practice of this committee, if you would please rise, I will 
begin by swearing you all in.
    If you would raise your right hand, do you and each of you 
solemnly swear that the testimony that you are about to give 
shall be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Thank you very much. You may be seated. Let the record 
reflect that all of the witnesses answered in the affirmative.
    Now, let me introduce our witnesses.
    First is Neil Portnow. Mr. Portnow is the president of the 
National Academy of Recording Arts and Sciences.
    Our second witness is Booker T. Jones. Mr. Jones is an 
American multi-instrumentalist, songwriter, record producer, 
and arranger best known as the front man of the band Booker T. 
& the M.G.'s.
    Our third witness is Aloe Blacc. Mr. Blacc is an American 
musician, singer-songwriter, record producer, actor, 
businessman, and philanthropist.
    Our fourth witness is Tom Douglas. Mr. Douglas is an 
American country music songwriter.
    Our fifth witness is Mike Clink. Mr. Clink is an American 
record producer.
    And our sixth and final witness is Dionne Warwick. Ms. 
Warwick is an American singer, actress, and television show 
host, and a United Nations Global Ambassador for the Food and 
Agriculture Organization, and United States ambassador of 
health.
    Welcome to each and every one of you. And we will begin our 
testimony with Mr. Portnow. And I will just advise each of you 
that your written testimony will be entered into the record in 
its entirety, and we ask that you summarize your testimony in 5 
minutes.
    To help you stay within that time, there is a timing light 
on the table. When the light switches from green to yellow, you 
have 1 minute to conclude your testimony. When the light turns 
red, that is it. Time is up.
    Mr. Portnow, we also know that you can't stay for the 
entire hearing, so we understand that and excuse you for other 
activities that you have to engage in, but you may begin. 
Welcome.

 TESTIMONY OF NEIL PORTNOW, PRESIDENT, THE RECORDING ACADEMY; 
    BOOKER JONES, SONGWRITER, RECORD PRODUCER, ARTIST, AND 
    ARRANGER; ALOE BLACC, MUSICIAN, SINGER, SONGWRITER; TOM 
 DOUGLAS, SONGWRITER; MIKE CLINK, RECORD PRODUCER; AND DIONNE 
                   WARWICK, RECORDING ARTIST

                   TESTIMONY OF NEIL PORTNOW

    Mr. Portnow. Thank you so much. Chairman Goodlatte, Ranking 
Member Nadler, members of the committee, my name is Neil 
Portnow. As president and CEO of the Recording Academy, I have 
the privilege of speaking today on behalf of the talented 
songwriters, artists, and studio professionals who comprise our 
membership.
    I want to welcome you all to GRAMMY Week. I also want to 
thank you for holding this hearing during music's biggest week 
and for inviting me to speak today. I am also grateful for your 
understanding of the hectic calendar this week presents and my 
need to perhaps depart a little bit early.
    Three and a half years ago, I had the honor of testifying 
before this committee as the opening witness in the first 
hearing on music licensing. As I speak to you today, I come to 
you with a very different and more hopeful message. It is a 
message that our industry is ready to work with you in a 
unified manner to pass comprehensive music legislation.
    During the 15 years I have been coming to Washington for 
music creators, one constant I have heard from our friends on 
both sides of the aisle is that our industry needs to be 
united. Members of the committee, we listened.
    The march toward consensus reached a historic marker this 
month when more than 20 music organizations supported resolving 
a number of music licensing issues, including those embodied in 
the Fair Play Fair Pay Act, the Music Modernization Act, the 
AMP Act, and the CLASSICS Act. You will hear more about those 
endorsed proposals today from the actual creators who are 
affected.
    And the unity goes far beyond the music industry. Thanks to 
tireless work by Representatives Collins and Jeffries, the 
Music Modernization Act is endorsed not just by songwriters and 
publishers but by digital music services. Thanks to 
Representatives Issa and Nadler, the CLASSICS Act is supported 
not just by artists and labels but by Pandora and the Internet 
Association. And thanks to Chairman Goodlatte and Ranking 
Member Nadler, we are, as has been widely reported in the 
press, having discussions with the broadcasters over the issue 
of radio performance rights for artists.
    The lack of a radio performance royalty in the U.S. 
discredits our commitment to intellectual property. We are the 
only Nation in the developed world where radio can use an 
artist's work without permission or compensation. We know that 
this untenable inequity must change. Congress knows that this 
must change. But here is what is different today: Many in the 
broadcast community also know that this must change. As radio 
transitions to new business models, they know their future 
depends on working with, not against, the artist community.
    I believe the solution to the performance right issue can 
be resolved if both sides work in good faith, and if Congress 
continues to demonstrate its commitment to fix this issue once 
and for all. This is an issue that artists will never stop 
fighting for until it is resolved.
    With this historic consensus on so many issues, what is 
next? Well, today's hearing is called, ``Music Policy Issues: A 
Perspective from Those Who Make It.'' But to understand the 
creator's perspective, you must understand the creators 
themselves.
    In Washington, we often put music makers into categories: 
songwriter, artist, producer, engineer. But in the real world, 
as on this panel, it rarely works that way. Booker T. Jones 
started his career as a studio musician but is also a recording 
artist, a songwriter, and a producer. Aloe Blacc is a chart-
topping singer, but he is also a songwriter, musician, and 
record producer. Tom Douglas is a hit national songwriter, but 
you will hear Tom's voice and keyboards backing some of his 
tracks. And Mike Clink has been a producer, engineer, and mixer 
for the biggest rock bands in the world, but he is also a 
songwriter and a vocalist.
    Just as creators cannot be compartmentalized, neither 
should music legislation. There are issues of consensus that 
would help all creators, and they are ready now to be marked up 
by this committee.
    When included in one unified package, you will have a 
unified core of songwriters, artists, and producers working 
every day to pass it. I urge this committee to mark up one 
comprehensive music licensing package of the consensus issues. 
Dividing the issues will divide our community. Uniting the 
issues will create an advocacy force so powerful that passage 
will be all but guaranteed.
    Now, in 2 days and a few blocks from here, music creators 
will recognize their peers with music's highest honor, this 
coveted award, the GRAMMY. [Laughter.]
    Mr. Portnow. Pass it down, please.
    Although this gramophone was invented more than 100 years 
ago, the GRAMMY today represents the pinnacle of music of our 
time. Similarly, some of our music laws were also established 
more than 100 years ago, but you can make those laws reflect 
our time as well.
    I urge this committee to seize this unique moment of 
consensus and pass comprehensive music licensing reform that 
will benefit all music creators.
    Thank you very much.
    [Applause.]
    Chairman Goodlatte. Thank you, Mr. Portnow.
    Mr. Nadler was hoping that that was for him. [Laughter.]
    Mr. Portnow. Well, it is not too late. [Laughter.]
    Chairman Goodlatte. We now welcome Mr. Jones. Thank you for 
being with us.

                   TESTIMONY OF BOOKER JONES

    Mr. Jones. Chairman Goodlatte, Ranking Member Nadler, and 
distinguished members of the committee, thank you for allowing 
me to testify before you today along with my fellow esteemed 
creators and my friend, Neil Portnow. My name is Booker T. 
Jones, and I am an artist, songwriter, and producer who has 
worked professionally in music for nearly 60 years.
    That seems like a long time, and on some days, it certainly 
feels that way. But many aspects of our music laws date back to 
an even earlier time--the player piano era. So I am gratified 
that this committee is making the effort to update music laws.
    I have been privileged to record some of the most iconic 
R&B and soul records that defined the genre, working with 
artists like Otis Redding and Bill Withers and, of course, my 
own band, Booker T. & the M.G.'s. Our single ``Green Onions'' 
was one of the biggest hits of 1962. That track has been called 
``iconic,'' ``groundbreaking,'' even, ``classic.'' But some 
music services have a less dignified name for it: ``pre-'72.''
    Because of a quirk in the law, many of our most timeless 
treasures are dismissed and disrespected as not meriting 
compensation to the featured artists, nonfeatured artists, and 
producers.
    You see, when Congress created the digital performance 
right, artists of my generation celebrated that we would now be 
paid for our classic works. But because sound recordings were 
not protected by Federal copyright law until 1972, some digital 
radio services believe they can play my recordings from the 
1960s and early 1970s without paying me.
    SiriusXM offers dozens of music channels where you can hear 
recordings made before 1972. So Sirius uses this catalog of 
great music to bring in billions of dollars, but they don't pay 
anything for the privilege of using the recorded tracks.
    This injustice is especially cruel for some of our great 
legacy artists. I am fortunate to have my good health, and I 
continue to make recordings and tour. In fact, tomorrow, I will 
be playing in Southwest Virginia, no doubt to some of Chairman 
Goodlatte's constituents.
    But not all my peers are so fortunate. Other artists and 
their labels have been fighting to correct this, filing 
lawsuits at the State level. This uncertainty is bad for 
artists, and it is bad for the digital music services.
    In this Congress, the CLASSICS Act, introduced by 
Congressman Darrell Issa and Congressman Jerry Nadler, and 
cosponsored by other members of this committee, would fix this 
problem once and for all. The legislation will also ensure that 
digital services are protected from future litigation. It is a 
win-win for everyone.
    I am especially excited that the CLASSICS Act has been 
introduced with support from Pandora and the Internet 
Association. Digital radio services don't want the legal 
uncertainty that comes from fighting lawsuits State to State. 
They just want to provide great music to their listeners.
    CLASSICS demonstrates that stakeholders can work together 
to solve the issues to update our music licensing laws.
    It is the same spirit of cooperation that led stakeholders 
to work together to create the AMP Act and the Music 
Modernization Act. All of these bills are important and should 
become law, and creators like myself have been actively 
lobbying for them.
    But our attention has been divided by different creators 
being asked to support differing and sometimes even competing 
approaches to solving these issues. What we creators need is to 
focus our combined efforts on a single package that resolves 
all of these issues.
    As a songwriter, producer, and artist, I can tell you that 
creators know we are all in this together. Give us this bill, 
and we will all work hard to pass it.
    And in this same spirit of cooperation, it is long past 
time for music creators and broadcasters to finally resolve the 
lack of a performance right for sound recordings on AM/FM 
radio. So I ask the members of this committee to continue to 
ensure that the NAB and their members work with us to resolve 
the performance rights issue, just as we have worked with the 
digital services to resolve other issues.
    From the Memphis sound of the 1960s to the sounds we will 
celebrate in Madison Square Garden on Sunday, American music is 
America's gift to the world. But it will only remain so if 
creators are incentivized to continue to create.
    That is why the Founding Fathers put copyright in our 
Constitution. Fixing music licensing isn't just about legacy 
artists like myself. It is about the next generation of music 
makers who dream about a career in music.
    This committee, under the leadership of Chairman Goodlatte, 
has done the hard work over the past 5 years. You have 
identified the problems, and now, you have the solutions, with 
buy-in from the relevant players.
    Don't let this opportunity to bring music into the 21st 
century slip away. Correct the law now so that all music 
creators, whether they write, play, sing, produce, or engineer, 
can make a living from the work they do that enriches all our 
lives.
    Thank you.
    [Applause.]
    Chairman Goodlatte. Thank you, Mr. Jones.
    Mr. Blacc, welcome.

                    TESTIMONY OF ALOE BLACC

    Mr. Blacc. Good afternoon, Chairman Goodlatte, Ranking 
Member Nadler, and members of the committee.
    My name is Aloe Blacc, and I am a songwriter. I am a member 
of ASCAP. And I am happy to be here today representing my 
colleagues and friends in the songwriting community.
    I know the Judiciary Committee has been hearing pretty 
regularly from songwriters over the past few years about our 
issues and struggles with the consent decrees, below-market 
rates, and our ideas for reform. And I am proud that, today, we 
actually have a bill that addresses some of these issues.
    Legislation was recently introduced in both Houses of 
Congress called the Music Modernization Act, and I want to 
thank Representative Collins and Representative Jeffries and 
all that you have done and that you have chosen to sponsor this 
bill.
    The Music Modernization Act is an important bill for 
songwriters, because it finally brings our laws into the 
digital age. It includes key provisions that will help solve 
some of our challenges to getting a fair deal.
    The first is rate court reform--dun, dun, dun. [Laughter.]
    I just wanted to put an exclamation on rate court reform.
    This legislation would change ASCAP and BMI rate court 
procedures to make the rate-setting process for performance 
rights consistent with other Federal litigation by randomly 
assigning a Federal judge using a lottery wheel system. We are 
just trying to make it consistent with the other systems. That 
is all. That is all.
    The second is repealing Section 114(i) of the Copyright Act 
so that a judge could consider all relevant evidence when 
determining songwriter compensation, including what record 
labels and artists make for the exact same performance, rather 
than just making this decision in a vacuum. Real world, let's 
use real-world information to see how people are making their 
livings.
    With these two provisions, the legislation will enable 
judges representing a variety of perspectives to consider a 
broader set of relevant evidence when determining rates 
songwriters can earn from the use of their music.
    Right now, the cards are stacked against us when it comes 
to rate court. These changes will help level the playing field 
for us, so we can at least hope for compensation for our music 
that better reflects its value to the people who listen to it.
    In addition to reforming how performance rights are 
considered, the MMA greatly improves how mechanical royalty 
rates are determined by the Copyright Right Royalty Board every 
5 years by updating the standard used by the judges. The MMA 
changes the rate standard to a willing seller, willing buyer, 
which reflects rates negotiated in a free market.
    This will dramatically improve fairness for songwriters in 
terms of how their work is valued and helps us get fair 
royalties from the massive interactive streaming companies who 
rely on, wouldn't exist without, absolutely need, are dependent 
on, don't have a chance in hell without our rights, without our 
music, and who currently pay a below-market rate.
    The bill also eliminates the bulk NOI loophole, which has 
allowed streaming companies to hold onto millions of dollars 
that they should be paying out to songwriters and publishers.
    Unlike many things in Washington, D.C., these days, this 
legislation actually has bipartisan support. And further 
defying the odds, the music and technology industries have also 
come together in support of it.
    You asked us for a consensus bill. We are delivering a 
consensus bill. And now it is time to move forward.
    I have been fortunate to find some success in making music, 
and that is because I am a recording artist. I also have the 
revenue stream from touring and endorsement deals. But for some 
of my friends who are just songwriters, the majority of their 
money is from the performance of a song, collected by their 
performing rights organization, like when it is played in a bar 
or streamed on a service.
    These performance royalties are what enable songwriters to 
put food on their table. That would make songwriters the 
smallest business you can think of in America. These are small-
business men and women.
    An example I can give you, ``Wake Me Up'' was my biggest 
hit. It was streamed by two leading interactive services for a 
combined 136 million times in the past four quarters alone. 
Yet, as one of three co-writers, which is the trend nowadays--
we get in a room with other writers. We are collaborative. You 
know, we do things together.
    I only received about 2,400 bucks, and that is only 1.8 
cents for every 1,000 streams. It is hard for a songwriter to 
earn a living when counting pennies.
    Now, this is a defining time for music licensing reform, 
and I can tell you we are all in desperate need of change. If 
we are going to protect what is arguably America's greatest 
export--personally, I would say it is America's greatest 
export--which is music, we need to make some changes.
    And I applaud all of you for taking the time to understand 
our issues and, hopefully, advocate on our behalf. Now is the 
time to take action, and I urge you to move this legislation 
through quickly. Songwriters need the relief.
    Thank you.
    [Applause.]
    Chairman Goodlatte. Thank you, Mr. Blacc.
    Mr. Douglas, welcome.

                    TESTIMONY OF TOM DOUGLAS

    Mr. Douglas. Thank you. Chairman Goodlatte, Ranking Member 
Nadler, and members of the House Committee on the Judiciary, 
thank you for the opportunity to testify about the Music 
Modernization Act of 2017, which I will refer to today as the 
MMA.
    This legislation is critically important for songwriters. 
It addresses multiple areas of the music licensing ecosystem 
and is a bipartisan bill supported by an unprecedented 
collection of songwriter groups, other music industry groups, 
and the digital services themselves.
    My story is similar to that of most American songwriters. I 
began writing songs at an early age while I was still in 
school. After graduation, I moved to Nashville to make my 
profession in songwriting. After a few years with little 
success at songwriting and wanting to marry and raise a family, 
I moved to Dallas to work in the real estate business.
    Attending a songwriting seminar in Austin 6 years later, I 
handed a cassette tape copy of one of my songs to a noted music 
producer, Paul Worley. Thankfully, he listened to that song 
when he returned to Nashville, and that song, ``Little Rock,'' 
became a number one hit for Collin Raye in 1994.
    It was about a man in recovery, and it still serves as an 
anthem for individuals and their families dealing with 
substance abuse. And while I was not dealing with substance 
abuse, I guess part of the song was really about me adapting to 
life without songwriting as my job.
    People don't know the songwriter Tom Douglas, but their 
lives have been enriched by my songs, such as ``The House That 
Built Me,'' ``I Run to You,'' ``Raise 'Em Up,'' ``Grown Men 
Don't Cry,'' and ``Southern Voice.''
    This is true of all songwriters, especially those who are 
not artists. Our songs identify American culture and move 
hearts and minds across the globe. Our songs have value.
    That is why adoption of the MMA is critical. The Music 
Modernization Act includes a new rate standard for songwriters' 
digital mechanical streaming royalties. The Copyright Royalty 
Board will be able to utilize the willing buyer, willing seller 
rate standard that should result in more equitable rates, 
because it is based on what my song is worth in the free 
market.
    Song ownership issues are addressed through a new blanket 
licensing entity called the Music Licensing Collective. 
Governed by music publishers and songwriters, the collective 
will assume responsibility for finding owners and keeping track 
of the ownership data.
    Digital services will be relieved from copyright 
infringement liability if they adhere to best practices. The 
U.S. Copyright Office mass Notice of Intent program that 
created many burdens on songwriters and resulted in millions of 
dollars of unpaid royalties will be eliminated.
    Songwriters will, for the first time, be legally entitled 
to at least half of all unclaimed funds from digital 
mechanicals to be equitably distributed based on songwriter 
activity.
    And ASCAP and BMI rate court judges will be randomly 
selected instead of being appointed for life. By eliminating 
Section 114(i) of the Copyright Act, those judges will be able 
to consider market factors like what record labels and artists 
earn for performances on the songs I wrote.
    When my first hit song, ``Little Rock,'' was climbing the 
charts, artists sold millions of albums and broadcast radio was 
not being challenged by streaming companies yet to exist. My 
royalties for record sales or terrestrial radio broadcasts were 
counted in pennies. When my song is streamed, royalties are 
counted in micropennies. For songwriters, it is not uncommon 
for millions of streams to equal only hundreds of dollars in 
royalty payments.
    For many years, songwriters have begged Congress for 
relief. The entire American music songwriter community is 
hopeful we will begin finding that relief in the Music 
Modernization Act. The MMA won't immediately or completely 
solve all the songwriters' digital rate woes, but it sets us on 
the right path.
    The present standard of evidence to set my mechanical 
royalty rates was established by Congress in 1909 for player 
piano rolls. Why so long? Because reaching agreements between 
songwriters, music publishers, performing rights societies, 
record labels, streaming companies, and their representative 
organizations is Herculean. But the MMA represents precisely 
such a compromise.
    Congressman Doug Collins should be commended for his 
ability to navigate the differences these groups held. He and 
Congressman Hakeem Jeffries have led our industry into a new 
era of cooperation with the introduction of the Music 
Modernization Act of 2017.
    On behalf of songwriters, I ask the House Committee on the 
Judiciary to swiftly adopt this historic legislation.
    Thank you.
    [Applause.]
    Chairman Goodlatte. Thank you, Mr. Douglas.
    Mr. Clink, welcome.

                    TESTIMONY OF MIKE CLINK

    Mr. Clink. Chairman Goodlatte, Ranking Member Nadler, and 
members of the committee, it is an honor to be here in New York 
during GRAMMY Week to discuss issues affecting music creators, 
specifically those----
    Chairman Goodlatte. I think you might want to pull that 
microphone a little closer to you.
    Mr. Clink. You would think I would do better, being a 
producer/engineer here, you know? [Laughter.]
    Chairman Goodlatte. I can give you tips any time.
    Mr. Clink. Okay. Should I start over or just----
    Chairman Goodlatte. No, go ahead.
    Mr. Clink. Okay. I was going to say, specifically those 
affecting my fellow producers and engineers.
    Now you may be wondering what is a guy who produced Guns N' 
Roses, Megadeth, and Motley Crue records doing in a suit 
testifying at a congressional hearing. Well, it is actually not 
as strange as it seems. I have had the good fortune of making 
successful records that sold millions of copies, and now I want 
to make sure that the next generation of creators who do not 
have the benefit of that antiquated concept, record sales, can 
make a fair wage.
    As proud as I am of my work in the studio, I am equally 
proud of the work I am able to do in the Producers & Engineers 
Wing of the Recording Academy. The wing works hard with other 
stakeholders to ensure that there is a future for professional 
producers and engineers. But for that, we need your help.
    Despite playing an indispensable role in the creation of 
sound recordings, music producers have never been mentioned in 
any part of Federal copyright law. Our fingerprints are all 
over the creation and direction of a sound recording, and our 
creativity is reflected in what we listen to. There is no Sgt. 
Pepper's without George Martin, no Thriller without Quincy 
Jones, and, if I may, no Appetite for Destruction without Mike 
Clink.
    [Applause.]
    Mr. Clink. The studio professionals are integral to the 
creation of the final track, just as the songwriters and 
musicians are so integral.
    When it comes to compensation, producers currently have no 
legislative way to collect royalties. Since 1995, when Congress 
created a performance right for digital services, performers 
and labels have been entitled to a statutory performance 
royalty. Producers were not mentioned. Thus, the producers must 
indirectly collect their share from the artist. This is an 
ineffective and unnecessary process that can result in a 
months' long delay before we get paid. And in some cases, for 
older recordings, it is impossible to even reach the artist or 
the heirs.
    SoundExchange has established a voluntary system of letters 
of direction to pay producers directly. We are very grateful to 
SoundExchange for establishing this system, but they and we 
believe it should be codified into law.
    That is why I was so heartened by the efforts from 
Congressman Joe Crowley and Tom Rooney in 2015, and again last 
year, to introduce the Allocation for Music Producers Act, or 
the AMP Act. The AMP Act codifies the producer's right to 
collect the royalties we are owed, extending for the first time 
copyright protections to studio professionals.
    It would codify the letter of direction process used by 
SoundExchange so that producers can be paid directly, quickly, 
and accurately. And it also includes a provision that would 
allow producers to collect a small percentage of royalties from 
older works, subject to the determination of the artist or 
heir.
    The AMP Act does not change the artist's statutory rights 
but just improves the efficiency of payments determined by the 
artist. It is a common-sense approach that is the result of 2 
years of negotiation between all affected parties. It has the 
endorsement of SoundExchange, the Recording Academy, and nearly 
20 other music organizations, and the bipartisan support of 
more than 50 cosponsors.
    Now, with such wide consensus and no opposition to the AMP 
Act, this should be easy to pass as a stand-alone bill, but 
that is not what the producer community is asking of you today. 
Creators are all in this together, and we want our friends in 
the songwriting and artist communities to achieve the necessary 
changes to laws that will help all creators.
    Thus, we ask Congress to include the AMP Act in 
comprehensive music licensing reform that also includes the 
consensus provisions of the Fair Play Fair Pay Act, the Music 
Modernization Act, and the CLASSICS Act. The artists, 
songwriters, producers, and engineers I work with are ready to 
roll up our sleeves and work hard to pass a comprehensive bill. 
And I can promise the thousands of members of the Producers & 
Engineers Wing of the Recording Academy will be your frontline 
troops.
    I applaud the efforts of this committee for undertaking 
this endeavor to help hundreds of thousands of American 
creators make a living doing the work so valued by our country 
and the world. I know that these reforms will create a better 
future for tomorrow's producers, songwriters, and artists. 
Thank you.
    [Applause.]
    [The statement of Mr. Clink follows:]
    Chairman Goodlatte. Mr. Clink, thank you very much.
    Ms. Warwick, we are honored to have you with us today.

                  TESTIMONY OF DIONNE WARWICK

    Ms. Warwick. I am pleased to be here. Thank you so very 
much.
    Well, Chairman Goodlatte, Ranking Member Nadler, and 
members of the committee, I want to, first of all, thank you 
for giving me the opportunity to again testify with regard to 
this very same issue.
    It is also an honor for me to join my esteemed colleagues 
in sharing our experience as music creators and the need for 
Congress to protect our craft.
    Music has always been a part of my life. I have been 
fortunate enough to have a career spanning more than half a 
century. I have been honored to record and perform with some of 
the most talented, iconic artists and musicians of our time. We 
all get to do what we love for fans who love what we do.
    It is particularly gratifying to know how my work and the 
work of my contemporaries has endured. On any given day, you 
can hear our music belting from speakers, lifting spirits, 
fueling memories, and inspiring new generations of creators.
    Yes, clearly, our recordings still have value. You might 
even say, like all of us, they get better with age. [Laughter.]
    Ms. Warwick. After all, there are entire channels on 
SiriusXM dedicated to music of the '60s and '70s. But here is 
something strange: Artist labels get paid for music played on 
the 1970s channel that was recorded after February 15, 1972, 
but we get absolutely nothing for the music played on the '60s 
and '70s channels recorded before that date. Now I think that 
is completely ridiculous, but then, who am I?
    How could it be that 1979's recording of ``I Know I Will 
Never Love This Way Again'' receives compensation but 1969's 
``I'll Never Fall in Love Again'' or my exceptional co-panelist 
Booker T. Jones' 1962 hit ``Green Onions'' does not? Why? It 
can't be because the '60s songs have no value or they wouldn't 
offer that channel. Is our music and are we simply experiencing 
a form of digital ageism? In a way, yes.
    Due to a quirk in history of copyright law, February 15, 
1972, effectively serves as the benchmark of my value. We are 
essentially being told that we are too old to be compensated 
for our work.
    I know it was never intended to be this way. It is just a 
fluke of timing. But services like SiriusXM have embraced this 
legal loophole to help make billions without sharing a cent of 
it with those who made the music. That is not only 
inappropriate from a business standpoint, it is morally 
inexcusable. After all, many of these legacy artists are no 
longer able to record, to tour, or to make appearances. It is 
precisely these older recordings that provide the funding for 
their growing medical bills, their well-deserved retirement.
    Withholding compensation for the product of their labor 
simply because of an arbitrary date makes no sense. It is just 
not right, and it must be fixed.
    That is why I was thrilled to hear that Congress has 
finally taken up the cause this year and is poised to include 
this important issue in a package of needed reforms that will 
help artists, producers, and songwriters.
    I spoke out in support of the RESPECT Act and the Fair Play 
Fair Pay Act when they were introduced, and now I want to give 
special thanks to Representatives Issa and Nadler for 
introducing the CLASSICS Act, which protect pre-1972 
recordings.
    The one little thing about the bill is that it enjoys the 
support of not only legacy artists but services like Pandora 
and organizations like the Internet Association that understand 
the legal certainty, licensing convenience, and ethical decency 
it provides. The entire community has joined together in 
support of this change.
    I want to raise one other issue. To this day, terrestrial, 
I can hardly say the word, AM/FM radio uses our recordings 
without any compensation at all. For nearly a century, an 
entire industry has made a very lucrative business generating 
advertising off of our music. Our attention to this issue has 
spanned generations, unfortunately, without positive outcome.
    Now, I understand that productive negotiations are going on 
now between broadcasters and the music community, and I ask you 
all to call--I ask that you call on the parties to successfully 
resolve this issue once and for all, so that our parties can 
finally be paid fairly for their work.
    I know that I am out of time, almost.
    Recording artists have never been more optimistic about the 
prospects for legislation that will allow music to flourish. As 
I said, the entire music community supports the CLASSICS Act to 
finally compensate our country's celebrated legacy artists. It 
supports the AMP Act, which will ensure that music producers 
receive their royalties. It supports a royalty rate standard 
for both artists and songwriters that will provide market-based 
compensation for those creators. It also supports the Music 
Modernization Act, which establishes a licensing system for 
songwriters better suited for a digital age.
    We hope that the committee will quickly move through this 
comprehensive legislative package together as one, just like we 
have come together as one community.
    Chairman Goodlatte, Ranking Member Nadler, we greatly 
appreciate your leadership on this multiyear copyright and 
music licensing review. They are not easy issues, but this 
committee has worked hard to bring the parties together to 
identify points of common interest and to help find acceptable 
and effective solutions.
    So let's go make it happen together. After all, that's what 
friends are for. [Laughter.]
    [Applause.]
    Ms. Warwick. As I once sang, notably in 1967, I will say a 
little prayer for you, and hope that this year is when all 
those who write, sing, record, and produce the songs we love 
are recognized and appropriately compensated for their work.
    I also wanted to ask you, can we do this retrospectively? 
[Laughter.]
    Ms. Warwick. You know what I mean? Take me back to 1962 
when I first recorded--how about that?--when all these things 
were continuing, to sustain itself.
    I am out of time, aren't I? Okay, sorry.
    [Applause.]
    Chairman Goodlatte. Thank you, Ms. Warwick.
    We will now proceed with questions under the 5-minute rule. 
I will begin by recognizing myself, and I will start with Mr. 
Douglas and Mr. Blacc.
    How has the ability of a songwriter to make a living 
changed over the past several decades? Has the total number of 
songwriters increased or decreased? And what would you tell a 
young songwriter about their chances for success in 2018 and 
beyond?
    Mr. Douglas.
    Mr. Douglas. Well, the number of songwriters in Nashville 
has been greatly diminished, really because the ability to make 
a living, which is primarily from performance income and 
digital income, I mean both those two income sources have been 
really eviscerated as the distribution of music has gone almost 
completely to streaming. And in streaming, we are getting paid 
micropennies instead of pennies.
    So, I mean, the ability to make an income is really just 
disappearing as technology has outpaced creativity. So as we 
say, there is blood in the streets in Nashville, metaphorically 
speaking, just because it has gotten so hard to make a living.
    Chairman Goodlatte. Mr. Blacc.
    Mr. Blacc. Yes, I would agree with Mr. Douglas, and I would 
say, if we just look at the math, the numbers that I presented, 
in a quarter, 3 months, for one of the biggest hits that I have 
made, and it comes out to about $800 a month as a songwriter. 
And I would be pressed as a songwriter, without the extra 
income--a lot of the folks I know in Nashville are just 
songwriters. Nine o'clock in the morning, they are in; 5 
o'clock, they are out. That is how they feed their families.
    At 800 bucks a month, it doesn't work. And you have to make 
a hit to get the 800 bucks a month, not just an album cut. Then 
you have to make multiple hits in order to just cover rent. And 
then to pay your family, I don't know how many hits you have to 
do. And in a market where you are competing against everyone 
else, it is just not tenable.
    So the idea is that there can be a free-market system where 
we can decide, with the help of our performing rights 
organizations, on the value of our songs.
    Chairman Goodlatte. Ms. Warwick, I think I know your answer 
to this question, but is there any reason that you can imagine 
that the law should make your works from the late 1960s and 
early 1970s less worthy of compensation than your works and the 
works of others from the mid-1970s to now?
    Ms. Warwick. Absolutely. I think, first of all, I am 
entitled to it. My career is based on recorded music played on 
radio constantly. And over the past 57 years now, my recordings 
have been played, and I have not been paid. And I don't think 
it is fair, simply.
    Chairman Goodlatte. Thank you.
    Mr. Jones.
    Mr. Jones. Yes, sir, I just wanted to----
    Chairman Goodlatte. I want to ask you a question, and then 
you can answer two.
    Mr. Jones. Oh, sorry.
    Chairman Goodlatte. Where do you see the music industry 
changing over the next several decades? And how has the 
Internet enabled artists to be more connected to their fans?
    Mr. Jones. Chairman Goodlatte, before this young man came 
along, people were selling records over the counter, 45s and 
albums, and there were mechanical royalties. And that is where 
the songwriter got his pennies, was when those sales 
transacted.
    Fast-forward to about 2002, 2012, when all the CDs stopped 
crossing counters, those mechanicals disappeared. And there 
lies the difficulty of making a living as a songwriter with 
only the streaming income.
    So the industry completely changed, turned on its head, and 
that is just gone. It is gone probably forever. I don't know if 
we will ever go back to vinyl sales being what they were.
    But that is how we made our money. We looked forward to it, 
and it was a quarterly income. And my income dropped in the 
2000s by about half, when people stopped buying the CDs. So it 
was just a quirk. That is how we did it. It was the 
mechanicals. And we were paid a fairly decent, fair rate on 
mechanicals, but it is gone.
    Chairman Goodlatte. And my second question----
    Mr. Jones. Sorry.
    Chairman Goodlatte [continuing]. How the Internet has 
enabled artists to connect with their fans, because we have to 
look ahead, too.
    Mr. Jones. Absolutely. Great enabler, a great enabler. But 
that is dependent on what we are doing here today, actually.
    Chairman Goodlatte. Absolutely. Thank you.
    My time is about to expire. I will recognize the gentleman 
from New York, Mr. Nadler, for 5 minutes.
    Mr. Nadler. Thank you, Mr. Chairman.
    I want to ask this question of, first of all, Mr. Jones, 
and after that, Ms. Warwick.
    In your testimony, Mr. Jones, you state that many of the 
most timeless treasures, including ``(Sittin' On) The Dock of 
the Bay,'' ``Soul Man,'' and ``Time Is Tight'' are dismissed 
and disrespected as not meriting compensation to the featured 
artists and nonfeatured artists and producers.
    How does this impact you and the artists you have worked 
with over the years?
    Mr. Jones. Would you like that answer in an estimation of 
dollars and cents, sir? I don't know the value. I think that 
the impact is not really quantifiable. It is just so huge, 
because those companies rely on those songs.
    I am subscriber. I am a subscriber. I have Sirius radio in 
my Jeep, and I have it in my other Jeep.
    Mr. Nadler. You have to pay to listen to your own music, 
for which you don't get paid.
    Mr. Jones. Yes, sir. I pay. [Laughter.]
    [Applause.]
    Mr. Jones. Yes, sir. I pay, and I don't even get the 
benefit. But those are my favorite channels, and they are the 
reason that I subscribe to those services, because I listen to 
'50s and '60s. I like the big bands, and, of course, the '60s 
music is my favorite.
    But I can't give you a quantifiable answer. I could get 
back to you on that.
    Mr. Nadler. Ms. Warwick, I will ask you the same question, 
but I don't need a quantity. Basically, how does it impact?
    Ms. Warwick. Would you repeat the question?
    Mr. Nadler. The pre-'72 lack of compensation, how does that 
impact?
    Ms. Warwick. Oh, heavens, for any artist that recorded in 
that period of time, prior to the '70s, most of my peers, and I 
am sure that Booker T. can attest to this, a lot of them are no 
longer with us. Their estates are nil, because of lack of 
payment. A lot of them are not able to perform any longer.
    It is a major impact on financial stability, just being 
able to live today. To be compensated for the work that has 
been done is primarily what we should be. I mean, it should not 
be just overlooked.
    Mr. Nadler. Thank you.
    Ms. Warwick, you suggested, I don't know how seriously, 
that----
    Ms. Warwick. Oh, I was serious about retroactive.
    Mr. Nadler [continuing]. We pay pre-'72 royalties 
retroactively or retrospectively. I am not going to comment on 
that. I am just going to say that some people, many people, 
look to the Bible as a source of moral guidance, and it says in 
the Bible, you shall not cause the wages of a worker to remain 
with you overnight.
    We have caused the wages of workers to remain with us since 
1972, so maybe that should guide us a little as we consider 
some of this legislation.
    I was going to ask Mr. Portnow, but I will ask whoever 
wants to answer this question. Everyone has talked about, we 
should get together, obviously. I have been telling people we 
should get together for a long time. But how important is it 
that we consider one unified package of bills that will unite 
songwriters, artists, and producers? And is the music industry 
ready to work together with Congress to pass a broad set of 
reforms?
    Who wants to take that?
    Ms. Warwick. I think it is absolutely necessary, based on 
the fact--I was brought into this particular entity by Frank 
Sinatra many, many years ago when he decided that he wanted his 
band to be paid for producing the music that you were listening 
to. And they finally said, Dionne, you know, you are not 
getting a cent every time your record is played, and you should 
be. And I totally agreed with them.
    This is why I said retroactively. We would love to get paid 
for 1962 up to now. But this is something that just morally 
should be thought about.
    Mr. Nadler. Thank you.
    Mr. Jones, I have one more question. My time is going to 
run out.
    In your testimony, you state that the CLASSICS Act is 
supported by Pandora and the Internet Association. Why do you 
think digital services support the bill?
    Mr. Jones. I think they have a very valid business reason, 
to be honest with you, to support it. As I said in my 
testimony, defending yourself State to State doesn't really 
make sense for something that is eventually going to become a 
Federal law.
    And as Ms. Warwick said, it is the right thing to do. It is 
the right thing to do. It is absolutely inevitable. There has 
been a convergence of consensus, of cooperation, that we are 
all in this together. The digital services and the creators, we 
really should all be on the same side. We shouldn't be 
differing on these issues, and I think they realize this.
    Mr. Nadler. In other words, you are saying two reasons: 
one, the moral reason; two, the uncertainty of litigation State 
by State.
    Mr. Jones. Yes, sir.
    Mr. Nadler. Thank you very much. My time has expired.
    Chairman Goodlatte. Thank you.
    The chair is now pleased to recognize the gentleman from 
California, Mr. Issa, the chairman of the Intellectual Property 
Subcommittee, for 5 minutes.
    Mr. Issa. Thank you, Mr. Chairman.
    First of all, I would like to ask unanimous consent that a 
policy essay, which has been accepted by the Harvard Journal of 
Litigation, be placed in the record.
    Chairman Goodlatte. Without objection, it will be made part 
of the record.
    Mr. Issa. Thank you, Mr. Chairman.
    Second of all, I want to take a moment to thank you. The 
suggestions that are being heard here today that individual 
pieces of legislation that have been spawned, if you will, from 
these many, many hearings that you have put yourself and your 
family through as you have gone around to hear it wouldn't have 
happened without your leadership.
    Obviously, part of that is to break a rule, which is, in 
Washington, there is an old expression that there is no limit 
to how far you can go if you don't worry about who gets the 
credit. Now, that was said by somebody who wanted the credit 
for saying it. [Laughter.]
    And, actually, at least two presidents have taken credit 
for the same announcement.
    Mr. Chairman, I want to ask that you very much succumb to 
the request by the many members of your committee who have 
worked on the various pieces and do just that, to put together 
the combined consensus bill, because I think you have heard 
here today, and I have heard before this, that this is the only 
way that we are going to move this kind of legislation.
    Each of these pieces has broad bipartisan support and has 
support within many aspects of the industry. But it is now a 
unique time, and your leadership and your work creates that 
opportunity.
    And when we look at, and I will just briefly say, 115 or 
blanket licensing and the other reforms, CLASSICS Act, AMP, and 
so on, the work of each of the members here has been the result 
of your leadership and guidance. So as I do something that I 
have never been known for, which is suck up, Mr. Chairman----
    [Laughter.]
    Mr. Issa [continuing]. I want you to know that is the 
commitment I make to you, that it is that time.
    Now, I would like to get back to my piece of this pie.
    And, Ms. Warwick.
    Ms. Warwick. Yes.
    Mr. Issa. I grew up--we are closer to the same age than I 
would care to admit.
    Ms. Warwick. Okay.
    Mr. Issa. But the fact is, I grew up on your music, and I 
share with you this challenge. But I would like to put into the 
record, with your answering a question, you do get paid some 
right now for your pre-'72 work, right, by some companies?
    Ms. Warwick. As has been, I think, iterated, pennies, yes.
    Mr. Issa. But those pennies, wouldn't you say, and Mr. 
Jones, I will ask you the same question, that one of the 
greatest inequities we are dealing with in the particular of 
the classics is that, if some pay, whether it is pennies, 
nickels, or dimes, if some pay and others don't, we truly have 
an unfair competition problem by those who don't.
    In other words, I am sympathetic to you, all of you, as 
creative artists, in the desire to get you your fair 
compensation and to come up with a method for it. But this 
committee has pretty broad jurisdiction, and beyond copyright, 
we have a great interest in making sure that there is not, if 
you will, antitrust, unfair competition in all the other laws 
we put into place so that businesses can, in fact, have a 
business model that is not stifled by somebody else's business 
advantage.
    So, Ms. Warwick, you mentioned terrestrial radio, which is 
not here. But obviously, I listen to your music. Any time I 
turn on AM or FM, I do tend to listen to the stations----
    Ms. Warwick. Good.
    Mr. Issa [continuing]. That have your music. And your 
lovely, angelic voice coming across for no money has always 
bothered me.
    How do you feel about just that narrow question of the fact 
that you do get some compensation from some, and those 
companies are working against free, aren't they?
    Ms. Warwick. Yes, they are. You know, I personally have 
always said, once I got involved with this particular issue, if 
it were not for artists such as us, there would be no radio 
stations, and there would be no radio stations because they 
depend upon their access to--what is it called?--advertising. 
The advertisers----
    Mr. Issa. I have never seen a station that plays only 
advertising. [Laughter.]
    Ms. Warwick. Well, guess what? If it were not for the 
music, the advertisers wouldn't have an interest in the radio 
station. So that is where I stand.
    Mr. Issa. Very true.
    Mr. Jones.
    Mr. Jones. If I may clarify, before 1972, we do receive 
some income from our recordings if it is transmitted digitally.
    Mr. Issa. Right.
    Mr. Jones. However, aside from the digital transmission, 
there is no payment.
    Ms. Warwick. That is right.
    Mr. Jones. There is nothing over analog radio. We don't 
receive any money at all for that and never have.
    Mr. Issa. Exactly.
    And just in closing, but when you are sitting there looking 
at all the various facilities and technologies that are 
presenting your music, how do you feel about the fact that some 
are paying you some money, and some aren't? And as a result, 
you are not getting an equal opportunity for some of these 
emerging technologies that do pay you to succeed, aren't they?
    Mr. Jones. Absolutely. Actually, I think it lacks a spirit 
of cooperation. I think it does benefit us to have our music 
played over the radio. However, it is property. It is property 
that is being used, and there should be some right for the 
ownership of that property. And it just does not exist pre-
1972, unless it is transmitted over a digital medium.
    So that is the problem. That is the quirk. And it is 
intellectual property. It belongs to the people that create it, 
and they have no right. There is no right on paper. They have 
no right.
    Mr. Issa. Thank you.
    Thank you, Mr. Chairman.
    Chairman Goodlatte. Thank you.
    The chair is now pleased to recognize the gentleman from 
the music-loving State of Tennessee, Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Chair. I am also from the music 
really origins of the world, Memphis, Tennessee, and that is 
where music was really given birth.
    And I would like to ask Tom a question. Your song that you 
wrote that is kind of your most famous song is called ``Little 
Rock.'' I heard that more songs are written about leaving 
Nashville and going to Memphis than any other two cities. 
[Laughter.]
    John Hiatt had ``Memphis in the Meantime,'' and there are 
lots of others.
    Mr. Douglas. Right.
    Mr. Cohen. Why are all the songs written about leaving 
Nashville and going to Memphis? [Laughter.]
    Mr. Douglas. I think you have to leave home to find home. 
Maybe that is it.
    [Applause.]
    Mr. Cohen. I didn't know so much about your career, but I 
read a little bit about it here. I was a college friend of Paul 
Worley.
    Mr. Douglas. Oh, yes, sir.
    Mr. Cohen. He was a Beta, and I was close to them. We were 
at Vandy. And Paul is a great guy. And you were inducted into 
the Hall of Fame with Paul Craft, who is a Memphian----
    Mr. Douglas. Yes.
    Mr. Cohen [continuing]. And a friend, and wrote some crazy 
songs, too.
    Mr. Douglas. I would not have a career without Paul Worley, 
and we dearly miss Paul Craft.
    Mr. Cohen. You seem, from reading, that you are the Don 
Schlitz of this generation.
    Mr. Douglas. Well, I think that is a high standard. I am 
not sure anybody could quite reach Don's standard, but thank 
you.
    Mr. Cohen. It is a high standard. It seems like you have 
made it.
    Ms. Warwick, I am a big fan of yours as well. I guess we 
all are.
    And I appreciate the fact that, when Isaac Hayes passed, 
you sent a special notice and memorialized Isaac, who I know 
you did some music with. Isaac was just a star, and I 
appreciate that more than anything you have done, to remember 
him when he passed. That meant a lot to me. It meant a lot to 
people in Memphis.
    Ms. Warwick. Thank you. He meant a lot to me.
    Mr. Cohen. I get your music. See, I drive a '76 Peugeot and 
a '86 Cadillac. When I turn on the AM radio, it goes straight 
to your music. [Laughter.]
    Ms. Warwick. See, even your car knows. He will tell you.
    Mr. Cohen. Thank you.
    Is there anybody who has anything to say, anybody that is 
against these bills? Do you know of anybody against the bills 
or anything in the bills that is not something you would like? 
I know legislation is compromise. Is there something you would 
like to tell us that we ought to change?
    Ms. Warwick. Yes.
    Mr. Cohen. Thank you. Retroactivity, I know.
    Ms. Warwick. It has to be almost 10 years now ago, we had a 
forum that was held in Indiana, and it was to discuss exactly 
what we are discussing today, pay for play. Radio stations 
thought that we were gouging them, and how can you dare ask us 
to pay you for playing your music?
    How can we not ask them to pay me for playing my music?
    We found that their only argument was mom-and-pop stations. 
Well, wait a minute. Mom-and-pop stations exist exactly the way 
that any other radio station does: advertising costs. Money, 
money, money, money. Greed became the issue.
    We also found that the audience that was there, very much 
like this, was totally surprised to find that we were not being 
paid every time they heard my records on the radio. ``You mean 
you don't get paid?'' ``No, we don't.''
    Mr. Cohen. I agree that you should get paid when your songs 
are played. I know that Burt Bacharach was a great songwriter.
    Ms. Warwick. And Hal David.
    Mr. Cohen. Him, too. Him, too. Without you singing them, 
they might not have gone anywhere.
    Ms. Warwick. There you go.
    Mr. Cohen. And all the people that wrote Elvis's music----
    Ms. Warwick. You are absolutely right.
    Mr. Cohen [continuing]. If it wasn't Elvis singing, it 
wouldn't have gone nowhere. [Laughter.]
    So, I mean, you have to have the singer. And Sinatra did it 
for all those other people.
    Ms. Warwick. That is right.
    Mr. Cohen. They were great songwriters.
    Who represents the performers, if anybody? Songwriters have 
got a crew, and producers apparently all have somebody now. 
Does anybody represent the performers as a group?
    Ms. Warwick. When you say represent the performers, yes, 
SAG-AFTRA.
    Mr. Cohen. They represent you all?
    Ms. Warwick. Yes.
    Mr. Cohen. Okay, great.
    And what was the song you were saying that maybe who 
produced this song maybe shouldn't be here? What was it called? 
Something like ``Destruction''?
    Mr. Clink. That was the album called Appetite for 
Destruction, which had ``Sweet Child O' Mine,'' ``Welcome to 
the Jungle.''
    Mr. Cohen. You foresaw President Trump, didn't you? 
[Laughter.]
    Mr. Blacc, you wrote a song called ``Dystopia.'' Until this 
year and Donald Trump, I didn't know much about dystopia. 
[Laughter.]
    It kind of has become the word now. What is your song 
about?
    Mr. Blacc. It is an entire album, actually, called 
Dystopia, and it speaks really to social issues, the disparity 
between the rich and the poor, the issues that are facing some 
of the marginalized communities in society, in the inner 
cities.
    My goal with music is to make positive social change, but 
part of that is also speaking truth to power and just saying 
what I see, as so many of my heroes in music have done, like 
Marvin Gaye with ``What's Going On,'' Eugene McDaniels with 
``Headless Hero of the Apocalypse,'' and so forth.
    Mr. Cohen. Thank you. I will have to buy it and listen to 
it. I am sure I will appreciate it.
    And I appreciate what you are trying to do for malaria, and 
we will work on that, too.
    I yield back the balance. Thank you.
    Chairman Goodlatte. The chair is now pleased to recognize 
the gentleman from Texas and a musical family, Mr. Louie 
Gohmert.
    Mr. Gohmert. It is great to be with you. After hearing your 
songs back in the late '60s, I didn't think I would ever fall 
in love again.
    But anyway, you all have brought so much joy and added so 
much to our lives, and we want people to be able to make a 
living doing that.
    Before I came along, though, I read about something called 
payola, where people that recorded songs or wrote songs knew, 
if they could just get the radio station to play them, then 
they could be a big hit. And that is why, back in those days, 
nobody thought of having the radio stations pay other people. 
It was hard enough to prevent the bribes going to DJs. But 
obviously, things have changed over the years.
    But I am curious, does anybody know the state of 
negotiations with the terrestrial broadcast radio? Anyone know 
how things stand?
    Because I was under the impression that everybody was on 
board with the MMA. Do you know?
    Mr. Collins. Mr. Chairman, that is something that is going 
on, the chairman may have mentioned. It has been mentioned 
before. That is something that I am very proud to say, that the 
artists and the NAB are sitting down. They have been meeting 
almost for a year now, and I am very proud of what they are 
doing.
    They are getting a lot closer than where they have been on 
this issue, and it is something that I think everybody wants to 
see solved, and I am proud of the work that is being done 
there. We set that on a different track, and that track is 
working, and it will continue to work.
    Mr. Gohmert. Good. Thank you.
    Reclaiming my time, let me just ask, since I have been in 
Congress, we have also been getting lobbied by musicians that 
play for songs, and also producers, saying, hey, we should be 
able to have it legislated so that we get a percentage of 
whatever comes about.
    I would just like your impression on that. I am concerned 
that there will be more and more people asking for a percentage 
as the pennies have gotten smaller and smaller. My goodness, 
when you make 1/100 to 2/100 of a cent on a play, it is hard 
for anybody to buy a mansion, as I have heard others say it. 
``This was hit. I wrote it, and I was able to buy a mansion.'' 
You don't buy mansions on 2/100 of a cent.
    But what is your thought on percentages for musicians and 
producers?
    Mr. Clink. I can talk about the producers. I can tell you 
that nothing changes for the artist. I mean, nothing changes. I 
mean, that is what is so great about it. I mean, all producers 
are looking for is clarity in the law to make it easier to get 
the royalties that we are already entitled to get.
    I mean, when you look at a producer, when they talk about 
the Beatles, they say George Martin was the fifth Beatle. His 
fingerprints were all over the Beatles. I don't think that they 
would have been able to do what they could do without his 
input. And I think that anybody who is a producer is a partner 
with the artist.
    And it has been already negotiated that we have that 
royalty, and we are just looking for a bit of clarity in the 
law and making it easier to be recognized.
    Mr. Gohmert. Anybody else? I know this has been negotiated 
with streaming sources and also satellite radio, but what are 
your thoughts on what has been agreed to with regard to payment 
through satellite radio and streaming? It seems like you are 
still getting a pretty small amount.
    Mr. Blacc. Streaming is still extremely low. The main issue 
is the rate court, when it comes to PROs being able to 
negotiate without having to do--in a scenario where a judge is 
making decisions that don't take into account all of the 
relevant information on what the rates should be.
    The recording labels are getting paid for the master side 
of the recording, which is the actual audio that you hear. But 
on the songwriting side, the intellectual property, this is 
where we are stuck behind these antiquated rules that I believe 
can be changed with the Music Modernization Act.
    Mr. Gohmert. My time has expired, so let me just say, I 
hope we get it done this time, because I can't imagine anything 
that is better, the world is ours whenever we are together. So 
thank you.
    [Applause.]
    Chairman Goodlatte. I thank the gentleman.
    And the chair is now pleased to recognize the brand-new 
ranking member of the Intellectual Property Subcommittee, the 
gentleman from Georgia, Mr. Johnson, for 5 minutes.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman.
    And thank you all for being panelists today and telling us 
your experiences.
    Mr. Blacc, in your testimony, you state that, right now, 
the cards are stacked against songwriters in rate court, so you 
are in favor of the Music Modernization Act, which would change 
the standard that is used to determine royalty rates, and it 
would also do away with the current set up with the judges and 
install a board, a mechanical licensing collective, that would 
give songwriters a seat at the table.
    Can you explain to us how important that is to a fair 
royalty rate?
    Mr. Blacc. Sure. Mechanical license, as the name implies, 
is the mechanical performance of a song, a payment for a 
mechanical performance of a song. And it is antiquated. As Mr. 
Jones had mentioned, it comes from the playing of piano 
players, scroll piano players.
    Today, we have new systems and new ways to play music. The 
mechanical licensing system and pay is even antiquated because 
it hasn't grown with inflation. I think when it started, from 
the time it started to today, it should be at about $0.50 to 
$0.60 per song sold. Instead, it is only hovering around $0.09.
    So not only are we undercompensated just with the concept 
of inflation over the years, the digital streaming of our music 
is sitting behind this rate court on the mechanical side, not 
allowing for real negotiation to happen for the value of the 
music. And this is why I feel like MMA is going to really make 
a dramatic impact on the income of songwriters.
    Mr. Johnson of Georgia. Does anyone want to add anything to 
that?
    Mr. Jones. I think the ratio is quite different, quite a 
bit lower, is maybe the essence of what he is saying. The 
songwriters are paid a much lower ratio compared to the 
mechanicals that we were paid. The payment is lower, at a 
lesser rate. The rate has not been accelerated to what it 
should be.
    Mr. Johnson of Georgia. Yes. What we have is a situation 
where we don't have, nowadays, the physical embodiment of the 
sound being sold, but we have the streaming process taking 
place, so no physical copies being sold. Of course, you do have 
some being sold, but that part of the market is shrinking.
    Mr. Blacc. I think, at the end of the day, the copyright 
owners should have the right to decide what the value of the 
transaction is, because they own the copyright. In any other 
business, a creator gets to decide what the value of their 
product is, and they can say yes or no, based on who is willing 
to buy in that transaction.
    Unfortunately, as a songwriter and with our representative 
organizations--BMI, ASCAP, SESAC--we don't have that ability.
    Mr. Johnson of Georgia. Thank you.
    Mr. Clink, from your perspective as a producer, you state 
that, despite the indispensable role in the creation of sound 
recordings, music producers have never been mentioned in 
Federal copyright law, and that diminishes the ability to 
collect royalties.
    Would you comment about that?
    Mr. Clink. It is something that the Producers & Engineers 
Wing of the Academy has been working on for 10 years. I just 
think, we play such an integral part in every song. As I said, 
our fingerprints are all over every song, and our input is 
there.
    It was just such a glaring omission, to me, the fact that 
we were not represented. We couldn't find anything to say this 
is what we--we already had a contract. I wanted it put into 
law, so people could look at it, and we could say, this is what 
we deserve. We are not taking anything away from the artists. 
We are not taking anything away from the label.
    It just makes the process for us to be able to get our 
compensation more easily, something that we can point to, 
something that we can say: Here it is. It is written. It is in 
the law. It is nothing nebulous. And it is not anything that we 
can't substantiate with a contract.
    Mr. Johnson of Georgia. Thank you. And I am out of time, 
and I yield back.
    Chairman Goodlatte. The chair thanks that the gentleman and 
is pleased to recognize the gentleman from Pennsylvania, Mr. 
Marino, for 5 minutes.
    Mr. Marino. Thank you, Chairman. I apologize. My voice is 
headed the very south. I have a cold, and I am just trying to 
shake it. But I just really have one point that I would like 
you to square me away on.
    I chair the Subcommittee on Regulatory Reform, Commercial 
Law, and Antitrust. And the Department of Justice consent 
decrees with ASCAP and BMI are of particular interest to me. Do 
any of you, and anyone can speak up to this, have a view of how 
these consent decrees affect creators of music and the future 
of these consent decrees? Anyone?
    Mr. Douglas. The consent decrees, as I understand it, of 
ASCAP and BMI, they are under World War II-era consent decrees. 
So that just seems, in this day and age, it just seems 
ridiculous.
    So anything that moves the rate forward is just going to be 
a net positive for us, because we are dealing under such 
antiquated laws from such a long time ago.
    Mr. Marino. Is there going to be equity in that moving 
forward? Do you see equity to where you would like to see it?
    Mr. Douglas. Well, I mean, from a songwriter's standpoint, 
this is the first time that we will actually have 
representation on the collective, so this is a huge step 
forward for songwriters. We are going to have two songwriters 
on the music collective along with--everybody will be at the 
table, but this will be the first time that we actually have 
had an active voice, so it is very positive for us.
    Mr. Marino. Anyone else?
    Mr. Blacc. I would just like to say, it has always baffled 
me how, as a membership organization, as a member of ASCAP, 
there is a question of antitrust. We are not a corporation in 
the same way as Microsoft or a Google. We are a membership of 
colleagues, friends who write songs. And I think because we 
have this gift that we use to make our living, we should be 
able to hawk our wares as anyone in a marketplace is able to.
    Mr. Marino. And my last question is, does radio do today in 
promoting what it did 30 or 40 years ago?
    Ms. Warwick. No, in a word. I am sorry, no, radio doesn't. 
Radio, I don't think it is the same any longer. I really do 
not. Whatever it is, I don't know what it is. It is very 
ethereal.
    Radio stations were created for disco. Radio stations were 
created for rap music. Radio stations were created for 
everything in the world. Playing me, Dionne Warwick, on radio 
is a rarity these days unless you are listening to '60s, '70s 
radio stations that were created specifically to play those 
particular recordings.
    So as I said, in a word, no.
    Mr. Blacc. Largely today, Internet companies are being used 
for discovery and for promoting music. So an organization like 
YouTube, a company like YouTube, is where a vast majority of 
youth are discovering music, listening to music, and streaming 
music. Their rates are the smallest of all the big companies, 
and probably of all the companies anyway.
    And terrestrial radio still has relevance in many ways for 
breaking artists, depending on where you are from. But it all 
comes down to how is the copyright that is being distributed 
over the airwaves benefiting the creator.
    And on all sides with these businesses that we deal with as 
artists, we are not getting a fair deal. And it comes down to, 
I think, laws that can change, that can help us actually stand 
in the ring and fight with a chance.
    Mr. Marino. Thank you. It was a pleasure discussing this 
with you today. Thank you.
    I yield back.
    Mr. Issa [presiding]. I thank the gentleman.
    We now go to the gentleman from Florida, Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman.
    First, thanks to all of you for being here. This is a 
really important discussion.
    Mr. Clink, I want to thank you for taking four Members of 
Congress into the studio and producing a track that sounded 
like Guns N' Roses, or at least like passable music. That was a 
great experience.
    And, Mr. Jones, some 30-plus years ago, my parents dropped 
me off at the University of Michigan, and I started unpacking. 
And there was a DJ in Detroit who ended every one of his shows 
with ``Green Onions.'' I had never heard it before. I heard it 
that day and hundreds of more times throughout my days in 
college.
    You weren't compensated even once for the times that he 
played it, but it brought enormous joy to me, and I want to 
thank you for that.
    Mr. Chairman, I think this is a really important hearing. 
The committee has been engaged in review of copyright music 
licensing for a number of years. I am grateful to the chairman 
for taking up this process, and especially grateful that we are 
so near consensus on so many issues.
    As we celebrate the hard work and progress, it is really 
important to hear from a panel like this and, frankly, to hear 
from a panel like this in a room full of so many people who 
have dedicated good parts of their lives to helping this 
industry succeed.
    It is too easy for us to wade through these debates, 
however, without thinking about how our proposals so often 
impact the lives of artists and creators every single day. And 
I think that is because music is different. I think it is 
because music is personal for everyone.
    I, like so many others, and have moments that I think back 
to listening to a song in a car, going to a concert with my 
family, sitting alone in a room and discovering a song, a 
songwriter, an artist, a sound that I had never heard before, 
and finding such joy in it, and those moments where songs gave 
me comfort or turned around a day that I was certain would end 
as badly as it started were it not for the work that you do.
    So that is the core of what we are talking about today. And 
how we in Congress can improve the music ecosystem that will 
then touch the lives of millions of Americans and people all 
around the world is thanks to the power of the work that the 
people in this room do.
    As the testimonies of our witnesses have shown, these are 
complex issues. There is a wide variety of potential 
improvements to the 100-year patchwork of music licensing. The 
question is, how do we incorporate changes to keep the music 
ecosystem thriving for tomorrow?
    I think, over the past few years, we have all had moments 
where we considered what we would do if we were starting over, 
if we were designing a system from scratch. How simple it would 
seem to start from a blank slate here to develop a system to 
compensate songwriters and producers, publishers, record 
labels, streaming services, other key stakeholders, and to do 
it fairly.
    But we have had many conversations with people over the 
years and across the industry about what it would look like for 
them. And predictably, each often had very different answers 
based upon their experiences. But this has been a really 
important learning process, and we realize we have this really 
complex legacy system that we have to be realistic and, 
frankly, surgical about as we attempt to change it.
    So I just wanted to highlight again, I am so grateful for 
the effort that led us to this moment, but the issues going 
forward here and beyond that we just have to remember, first, 
maintaining a different performance rate standard for 
terrestrial radio than for digital competitors is just simply 
unfair. It is unfair, frankly, to the innovative digital 
services, but it is especially unfair to the performers whose 
music is no less valuable when played over the air.
    In the same vein, holding that music recorded before 1972 
should be treated differently than more recent music is 
disrespectful to the classic artists, two of whom we are 
blessed to have here today, who have contributed so much to 
America's musical legacy.
    February 15, 1972, Ms. Warwick, is not the benchmark of 
your value. You should never think that it is. And I am 
thrilled that we are close to rectifying that.
    As the cochair of the Songwriter Caucus, I have to mention 
how unfair we have been to the songwriters, the songwriting 
community, our Nation's great storytellers, who have produced 
these great stories that have meant so much to us emotionally.
    And finally, I just want to point out that reforming the 
Copyright Office for the 21st century can't be forgotten. We 
have to have flexibility and freedom for the office to fulfill 
its duties to creators and to the American public.
    I am really grateful for this hearing and for the moment 
that we have reached.
    And I would just end by making a point that I have made in 
committee multiple times. This is a really incredible device 
that we all have and that through which we are able to enjoy a 
lot. But every one of the great technologies that has provided 
access to us, every new innovation that gives us ways to 
explore and discover, could not be possible without giving us 
the ability to discover the music that all of you have created 
and continue to create, and we are so grateful for it.
    And I yield back, Mr. Chairman.
    [Applause.]
    Mr. Issa. I thank the gentleman.
    We now get to recognize the gentleman from Texas, a man who 
is no stranger to a radio station presence, with his 
experience, Mr. Farenthold.
    Mr. Farenthold. Thank you very much, Mr. Chairman. I did 
start working as a DJ in radio at 15 years old, so I am a 
little bit more sympathetic to terrestrial radio than probably 
some of the folks here.
    They are facing a lot of the same challenges that you are. 
Their audience is moving away to streaming services and 
satellite radio as well. And I worry, from time to time, what 
is going to happen without that local radio station when there 
is something like a hurricane that we had in South Texas. Where 
are the venues now for our local advertisers to affordably 
reach people?
    I have a subscription to Netflix. I have a subscription to 
a streaming music service. I have done a pretty good job at 
avoiding all commercials, if we could now just block some of 
the pop-ups on the Internet. So there is an issue there, and I 
urge you to be sympathetic.
    But I want to talk a little bit, and I will let anybody on 
the panel who wants to address this take it, you get complete 
sympathy from me that I believe songwriters, in particular, are 
underpaid. I think the performers, I used to say, well, get out 
and play some more concerts, and you can make some more money. 
But I want to come up with a fair solution for everybody, and I 
really do like some of the bills that are out here.
    But let's just take me for an example. I have a $120 
subscription a year to a streaming music service. I have a $120 
a year subscription to satellite radio. I go to two or three 
concerts a year. I will buy maybe five or six CDs a year. And I 
burn $500 a year on music.
    Where is this extra money going to come from? Who is making 
the money that we are going to redistribute here? Or am I going 
to end up spending $600 or $700 a year on my music?
    Mr. Jones. Yes, sir. Your point is so well-taken, and I so 
identify with it. And that is why I really wanted to emphasize 
today, I keep talking about the spirit of cooperation, for us 
to reach a place where we are not competing, a place where we 
are all on the same team, where we are all creating together.
    I would not be here if it weren't for the radio stations 
that played my music, and they played it for free and it 
benefited me. Yes, sir, your point is so well-taken. We all so 
benefited from that.
    However, as I said before, it is property. That is why I 
think that it is just a matter of us getting out of the 
competitive frame of mind and getting into the creative frame 
of mind together. That is why I said the National Association 
of Broadcasters and the songwriters and the creators are really 
on the same team. We do this thing together. Those stations 
couldn't exist without these great Guns N' Roses records. But 
the Guns N' Roses benefited from the stations playing that.
    Mr. Farenthold. Absolutely. It was a symbiotic 
relationship.
    Ms. Warwick, I do want to address your question. I mean, 
you were kind of joking about making it retroactive. Just so 
everybody knows, it would be an ex post facto law to go change 
the rules for something that has already been done.
    Mr. Jones. That has become a dirty word, but I think I 
heard something about 36 months or 3 years or something, in the 
spirit of cooperation.
    Mr. Farenthold. Again, I think we made a huge mistake when 
we set it up, where the older material was not covered in 
digital. I do think that is wrong. And I do think it certainly 
needs to be fixed going forward.
    Finally, I wanted to talk a little bit, and you all 
mentioned YouTube and how little they play, but they also offer 
a service. If I were to want to produce a video about anything 
and put some music behind it, I couldn't for the life of me 
figure out who I needed to pay, the songwriters, the 
performers. There is no comprehensive database.
    Mr. Sensenbrenner has introduced legislation to fix that 
and is part of this ongoing conversation.
    Does anybody object to having a comprehensive database of 
who owns what, so we can legally figure out who to pay?
    Ms. Warwick. Wouldn't you feel that all component parts of 
the music that you think that you want to play should be paid?
    [Applause.]
    Mr. Farenthold. I do, but if I were to, say, want to play 
one of your songs in a video, how would I figure out who all to 
compensate?
    Ms. Warwick. Well, there is a name of whoever wrote it. 
There is a name of whoever sung it. There is the name of 
whoever played on it. That is how.
    [Applause.]
    Mr. Farenthold. So how do I find them?
    I am out of time.
    Mr. Issa. You may answer.
    Mr. Douglas. I was going to say, part of the Music 
Modernization Act is this collective that is going to be set 
up. It is going to become, in a sense, a clearinghouse for all 
songwriters and publishers. That is where this information will 
come from.
    Believe me, songwriters, if we knew that we had a place to 
go to find ourselves, we will go find ourselves.
    And also, there is millions and millions of dollars that 
are not being paid that are being held by the streaming 
services now that this act, it will set up the clearinghouse so 
that we can finally be paid these unpaid royalties. So there 
are many, many benefits about that.
    Mr. Blacc. The answer to your question is the Music 
Modernization Act. It is in there, and we are trying to get 
that legislation passed so that we can have a Music Licensing 
Collective that does this work. SoundExchange worked extremely 
well in the digital age to collect performance royalties for 
digital streams. It is a beautiful system. It was something 
that has benefited me and all of the other artists and 
performers and even producers.
    So as long as we can get the Music Modernization Act 
through, the answer to your question is in there.
    Mr. Issa. I believe the ranking member has a quick 
question.
    Mr. Nadler. Yes. I would like to ask if the gentleman from 
Texas would yield for a quick question.
    Mr. Farenthold. Sure.
    Mr. Nadler. Thank you. I appreciate your concern for the 
financial viability of small radio stations. Were you aware 
that the Fair Play Fair Pay Act has a provision limiting 
liability or responsibility for payment of royalties for 
performing artists for radio stations under $1 million revenue 
a year to $500 a year? And would that satisfy your concern in 
this respect?
    Mr. Farenthold. It is certainly a good start. I do believe 
that. Again, I am generally supportive of all the legislation 
that we are discussing here today. It is just a matter of, the 
devil is always in the details.
    And I appreciate all the work everybody is doing on it and 
want to continue to be a part of it.
    Mr. Nadler. Thank you. I yield back.
    Mr. Issa. Thank you.
    I now have to get to the detail of recognizing the 
gentleman from Brooklyn, Mr. Jeffries.
    Mr. Jeffries. Thank you, Mr. Chairman.
    I thank all of the witnesses for your illuminating 
testimony here today.
    I think I will just to begin by pointing out that what I 
think we are charged to do as members of the Judiciary 
Committee, who have responsibility for all things 
constitutional, in the context of the music space is really 
just to bring to life at this moment in time Article I, Section 
8, clause 8 of the United States Constitution, which is a 
provision designed to give Congress the power to develop and 
maintain a robust intellectual property system in order ``To 
promote the Progress of Science and useful Arts.''
    Those aren't my words. Those aren't Collins' words or 
anyone's words. Those were the words of the Founders of this 
great country, who recognized it was important that the 
creative community deserved to be able to benefit from the 
fruits of their labor and, in doing so, would continue to share 
your brilliance with the entire world.
    [Applause.]
    Mr. Jeffries. So I would say that, with all the 
technological changes that are in place that we are working our 
way through, all of these bills, at the end of the day, are 
really just designed to be consistent with a vision for this 
Nation that was present at the very founding of the Republic.
    So with that, let me start with Mr. Blacc. The music 
ecosystem includes, as I understand it, songwriters, recording 
artists, producers, engineers, publishers, labels, among 
others. Is that right?
    Mr. Blacc. Yes. The music ecosystem is many different 
parts, and so I understand the importance in putting forth 
bills and legislation that is comprehensive, because from your 
seat, you see many issues--gun control, a lot of things that 
you guys have to vote on in Congress.
    When it comes to music, you want to see music as a package. 
You don't want to see songwriters screaming in your right ear, 
producers screaming in your left ear, the recording industry 
screaming at the front of you, and then the publishers behind 
you attacking you.
    We are coming together to find a way to make legislation 
that is housed in one bill that works for all of us, and this 
is what we found. We found it in the Music Modernization Act.
    Mr. Jeffries. Thank you.
    And, Mr. Douglas, so music consumption over time has gone 
from I guess vinyl records to eight tracks, eight tracks to 
cassette tapes, cassette tapes to CDs, CDs to downloads, 
downloads to streaming. And it is my understanding, I think, 
that as of 2 years ago in 2016, streaming has now overtaken all 
other forms of music consumption. Is that right?
    Mr. Douglas. Yes, sir.
    Mr. Jeffries. And you testified that our copyright law has 
not kept up with changes in society in the context of 
technology. Is that right?
    Mr. Douglas. Yes, sir.
    Mr. Jeffries. And how has the failure of our copyright laws 
to keep up with these technological changes and the way in 
which music is consumed impacted the creative middle class, not 
the superstars, but the creative middle class, the songwriters 
and recording artists who in the past have been able to make a 
middle-class living by participating in this wonderful thing we 
call music but appear to be threatened at this moment? I would 
be interested in your perspective on that.
    Mr. Douglas. Yes, sir. That is a good question.
    I mean, that is the reality. The middle class of 
songwriters has just been eliminated, and that is frightening. 
But really, the most frightening thing is it is the next 
generation of creators and songwriters, those are the ones who 
are going to be wiped out, because there won't be a viable 
business model for them to make a living if these changes 
aren't made.
    So I mean, honestly, we all have been very blessed in our 
time to make a living in music. The middle class is gone, but 
it is the next generation of the people to make great American 
music in their teens and their 20s that are going to be the 
next great export of America. They are just going to be wiped 
out.
    Mr. Jeffries. My time is expiring, so I think I will just 
make the observation that, if music has the power to bring 
together a conservative Republican from rural Georgia with a 
progressive Democrat from Brooklyn, New York, and someone on 
the left like Jerry Nadler and someone on the right like 
Darrell Issa, we should have the power to get something done on 
behalf of the music community.
    I yield back.
    [Applause.]
    Mr. Issa. I guess that is not just because he is local. 
[Laughter.]
    And with that, the gentleman from far away, from Georgia, 
who has done so much to move this agenda, Mr. Collins?
    [Applause.]
    Mr. Collins. Thank you, Mr. Chairman.
    I came to Congress 5 years ago this month. Shortly after 
that, the chairman of this committee, Mr. Goodlatte, gave a 
speech and said he wanted to deal with copyright. And just as 
the clarion call went out in previous generations to do 
something, I took him at his word.
    I didn't know a lot about it at the time, but I said 
something is not fair here, as I began to dig. I began to look 
at my own life, and I began to look at my own background. And I 
began to look at what changed my life, the songs, the music, 
the motion pictures, the things, the sights, and the sounds 
that come from the people's hearts, their minds, out of their 
mouths, out of their hands that touched generations, as 
valuable.
    Intellectual property, in its biggest sense, brought down 
to words and notes. And even from an old pastor, it is that 
song of the spirit. It is that constant vibration from the 
beginning of time that vibrates and fills what we feel every 
day.
    I took off on this trip. My staff thought me crazy many 
times. And I still am, because I am crazy about fairness, crazy 
about what is right. And when we can find partners to do this, 
like my friend Hakeem--we have been doing this a while, haven't 
we?
    Mr. Jeffries. That is right.
    Mr. Collins. Going from coast to coast, literally, seeing 
Aloe along the way, Tom along the way, Mike. We have seen you 
all.
    But let me tell you where we are at right now. An amazing 
thing that I have now come to be more and more settled on is 
that what we are on the cusp of after the leadership of the 
chairman moving forward is that we are on the cusp of making 
major music history, because of what we have in the bills that 
have been talked about today, starting with the Music 
Modernization Act.
    The Music Modernization Act is truly a defining moment, 
because it spans really the diversity of what we have.
    You may have had a song, Mike, that had ``Welcome to the 
Jungle.'' Welcome to the jungle of trying to negotiate these 
parties. [Laughter.]
    Mr. Collins. When you come along and you have the digital 
associations, Spotify, the others that are part of this that 
have done such work, and I will do them all, the Songwriters 
Association, NSAI, NMPA, BMI, ASCAP, SONA, the Recording 
Academy, SAG-AFTRA, CMI, the Internet Association, the 
Copyright Alliance, RIAA, SoundExchange, and the list goes on 
and on.
    This is the tool. This is the vehicle, if you would, to 
make the changes that we can see forward, so that this industry 
can change. The CLASSICS Act can be included. The AMP Act can 
be included. We are looking at that.
    But now is the time. The hearings have brought us to the 
point of understanding.
    And I have one more little announcement to make. We have 
talked about this, and I made mention earlier that I was so 
proud that the artists and the broadcasters went and for the 
last year have been discussing, but they also have been 
discussing on this one.
    And over the last little bit, I am extremely happy to 
announce that NAB, ASCAP, and BMI have reached an agreement 
regarding the Music Modernization Act. Their agreement resolves 
NAB's concern with potential introduction of new evidence in 
the rate-setting process while preserving ASCAP's and BMI's 
ability to seek meaningful compensation.
    [Applause.]
    Mr. Collins. I was told one time the only way you are going 
to get this done is to find consensus, and I told everyone, and 
many in this room will stand up and say amen, I said, go find 
me consensus, we will find a bill. And over the past year, we 
found consensus, with the hard work of this committee and the 
work of the chairman.
    I could ask you a lot of questions, Booker, Aloe, Tom, 
Mike, Dionne, but there is no sense in asking you questions. 
You have already answered them. It is your life's work. It is 
what has been put out here. Your life's work of touching people 
is what matters.
    So now we have the vehicle. Now we have a bill that you 
have been doing so well in talking about that addresses many 
concerns, where you can find out who owns something, where you 
can find out how people can get paid, where the system now 
finally comes together with every party working it.
    I cannot say enough about how the digital sphere and the 
songwriter sphere and the publisher sphere and the broadcasters 
have worked tirelessly on this. No one has said no. They said 
maybe. They said, I will try.
    And the Music Modernization Act, along with my friend 
Hakeem Jeffries and many who have signed on already, and also 
with our partners, our two Senator songwriters Mr. Hatch and 
Mr. Alexander, along with Mr. Coons and Mr. Whitehouse and many 
others, have said now is the time.
    So to this community that I have testified before many 
times, that I have heard from, and I have went and spoke to 
you, my heart for a kid from North Georgia, a trooper's kid 
who, when his dad went to work, he had a radio and a TV and 
books, when you read, you listen, you hear your songs. ``The 
House That Built Me'' is also the house that built this 
message, and this bill is ready to move.
    With that, all I ask is that, when we come together, Mr. 
Chairman, let's mark this up. Let's make history. And I yield 
back.
    [Applause.]
    Mr. Issa. Hear, hear.
    You know, Reverend, I think you have topped some of your 
Sunday services. [Laughter.]
    Mr. Issa. With that, we go to the gentleman from Rhode 
Island, Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you to our witnesses not only for the work that you 
have created that has enriched our lives and nourished our 
souls, but also for the work of the artists and songwriters and 
producers that you represent that have done that for people all 
over the world.
    So I think that we are all here, hopefully, committed to 
making sure that we fix this ecosystem that Mr. Deutch spoke 
about, and really fulfill our responsibilities that Mr. 
Jeffries spoke about that are in the founding documents of this 
country, because our Founders recognized that creating a system 
that protects artists and art and values, and fairly 
compensates art and artistic creations, matters to our 
humanity. It matters to our democracy and is our ultimate 
serious responsibility as Members of Congress.
    I am really thankful for all of the work that has gone into 
helping craft this legislation. When I think of the incredible 
talent that is spent--and I am not talking about Members of 
Congress. I am talking about artists and songwriters and 
performers that have devoted hours and hours and hours over 
many, many years. And when I think of what songs could have 
been written, what songs could have been produced, we are 
cheating the American people every day we don't get this done, 
because we are occupying you with things where you should be 
using your creative talent and doing that work.
    [Applause.]
    Mr. Cicilline. So I hope that we are going to move these 
bills today in front of you. I don't know if that is our plan, 
but I think it would be wonderful.
    But I think this is an example, sadly, where the technology 
and music is changing so quickly, and Congress is a kind of 
slow-moving entity, and I think we are catching up with these 
bills in a good way. But I would be interested to know from any 
of the panelists, as we think about kind of the next 10 years, 
the next 15 years, and I know that is hard to project, what are 
the likely things we should be thinking about, so that we don't 
find ourselves 10 and 20 years behind, because we can't afford 
to not have a system that compensates people for what they 
create.
    This is sort of a basic, simple idea. If someone creates 
something, it belongs to them. They should be paid for it, and 
they should get to decide how it is used, who gets to hear it, 
when they do, and under what circumstances. And we do that with 
every other creation, apparently except music right now. And I 
think that is a very basic idea that we need to recognize.
    But I am particularly interested to hear your thoughts 
about, when you look at some of the platforms where music is 
heard, and some of the incredible dominance of just a few 
companies, and the kind of market power that those companies 
have, those technology companies, is a willing buyer, willing 
seller going to work in an environment where there is a lot of 
power on one side of the negotiating table in these instances? 
And are there some issues we need to be thinking about, because 
even if we arrive at a solution, if the negotiations are really 
imbalanced, maybe it is still not going to result in fairness 
to artists and producers and songwriters?
    So my real point is, thank you. I think we are all 
committed to getting this done. Certainly, I am. But are there 
issues that we should be thinking about as we look forward to 
prepare ourselves to be more responsive as the technology and 
the industry changes?
    Mr. Douglas. Well, from a songwriter's standpoint, almost 
100 percent of our income is government-regulated, which I 
cannot think of another industry were that is the case. The 
more that we can, with all due respect, get the government out 
of our business and be able to take it to the marketplace, 
willing buyer, willing seller, just to negotiate, the better 
off we are going to be.
    We just want to detangle ourselves from all the regulation 
and just allow us to negotiate in the free market, just like 
any other kind of business.
    [Applause.]
    Mr. Blacc. I agree with what Mr. Douglas is saying. I 
totally recognize and understand the comment that you are 
making about the tension between really big, behemoth companies 
that could potentially make a willing buyer, willing seller 
situation impossible for a small songwriter. However, I believe 
it should be the power in the hand of the creator, as with 
every other industry.
    And then in addition, to close the loopholes that protect 
these big companies for Notice of Intent to remove where they 
are using our content but not paying for it because of, say, 
the Digital Millennium Copyright Act, where they are saying 
that we have people uploading it, and we cannot control it all. 
I don't know if I believe that, but if it is there, you can at 
least count it. And if you can count it, then you should be 
distributing the income that is made from it.
    One more comment is that, if the money is in the hands of 
the songwriters, we will pay taxes on it. When it is in the 
hands of the big guys, we don't know where that tax money is 
going. And some of them aren't even registered in the U.S. 
anymore. They moved other countries, so I would----
    Mr. Cicilline. That would be a great invitation to comment 
on the recent Republican tax bill. I will decline, in the 
spirit of bipartisanship, and yield back, Mr. Chairman. Thank 
you.
    Chairman Goodlatte [presiding]. The chair is pleased to 
recognize the gentleman from Florida, Mr. Gaetz, for 5 minutes.
    Mr. Gaetz. Thank you, Mr. Chairman.
    The democratization of music has never been without 
controversy. When FM radio first began, there were some in the 
creative community who were incensed that they weren't being 
compensated for each and every play. Several of you have 
acknowledged that FM radio did a lot to ensure that creative 
people were able to achieve great prosperity as a consequence 
of their creations. Why is this different?
    Ms. Warwick. Why is what different?
    Mr. Gaetz. Why is the digitization of music and creating 
greater access, greater enjoyment, building bigger audiences, 
creating greater demand for performances, why is that a 
different circumstance than the circumstance that we saw when 
music first went on to terrestrial radio?
    Mr. Douglas. We embrace technology. This is not against 
technology. We love all the technological revolution that is 
happening. But the technological companies are exploiting a 
loophole in which they are not paying us our fair share for 
using our product, so that is the difference. I mean, AM radio 
and FM radio----
    Mr. Gaetz. You weren't getting paid on FM radio, right? I 
mean, when FM radio first began, as I believe was stated by Mr. 
Jones, FM radio was playing music for free.
    Mr. Douglas. Well, our performance income, and particularly 
in country music, performance income, when we get a song played 
on the radio, that is a performance royalty, and that is a very 
substantial part of a songwriter's income, in country music 
particularly. So the performance income is not really what is 
in question here. It is the mechanical digital income that 
really is what we are talking about.
    All the distribution of music is going to streaming by 
2020. There won't be any downloads and there won't be any hard 
CD sales. You won't even be able to buy it. It is all going to 
be digital. So we have to be able to get our fair share when 
the songs are all going to be streamed. We are not going to be 
compensated, and that is what this act goes to accomplishing.
    Mr. Gaetz. Mr. Blacc, you made mention in your earlier 
testimony of the legal proceedings and the limitation on the 
inclusion of evidence that could lead to more just outcomes. 
Could you enlighten me as to the type of evidence that is being 
excluded now that you think, if it were included in those 
decisions, would yield better outcomes?
    Mr. Blacc. Yes, the royalty rate for the master side of the 
recording is a major part of it because the record labels who 
own the master recordings have had the opportunity to negotiate 
for a larger share of the pie of income made at the streaming 
company. If the rate courts were able to see what the size of 
the pie was, and then to consider what the value of the 
copyright is, master and intellectual property, underlying 
intellectual property, they could have the opportunity to say, 
well, without the underlying intellectual property, this master 
recording wouldn't exist. As a matter of fact, this master 
recording doesn't have the same merit as the intellectual 
property.
    When I write a song, lyric and melody, I can create 100 
different master recordings off of that lyric and melody, but 
the lyric and melody is the undeniable morsel, the atom, of the 
creation.
    This is, to me, the indelible value. And that is the one 
that I believe--the reason why I believe the rate court should 
be able to see what money is being made from this atom and why 
it is so valuable.
    Mr. Gaetz. That is an incredibly helpful explanation. Thank 
you very much.
    And your description of 136 million spins for pittance is 
consistent with what I have heard from many others in the 
creative community.
    And those of us who enjoy the consumption of music and 
would trade just about anything in our lives to continue to be 
able to consume music ought to have, I think, a greater 
awareness of that fact. That is why I am so grateful that Mr. 
Collins, Mr. Jeffries, Mr. Issa, and Mr. Nadler have undertaken 
that endeavor.
    I would conclude by again highlighting the point I believe 
my colleague Mr. Jeffries made. These are constitutional 
principles that are foundational to the United States of 
America. And what makes us special is that we value those who 
can create things that then become our great exports, but also 
a great sense of enjoyment and intellectual stimulation, 
emotional stimulation, within our country. So I am eager and 
hopeful that we will be able to have this legislation up for a 
mark soon.
    And I yield back.
    Chairman Goodlatte. The chair thanks the gentleman and is 
pleased to recognize the gentleman from California, Mr. Lieu, 
for 5 minutes.
    Mr. Lieu. Thank you. I want to thank Chairman Goodlatte and 
Ranking Member Nadler for holding this field hearing. It is 
incredibly informative.
    I also agree with Representative Cicilline that we should 
just move and pass these bills today, mostly because I am a 
Democrat and I would just be super-excited to be able to vote 
yes on legislation in this committee. [Laughter.]
    Mr. Lieu. And I want to thank the witnesses today. Not only 
does your work make the world a funner place, but it is an 
important part of our economy.
    My view is, we compete in America, emphasizing our 
competitive advantages. We are not going to compete making 
socks. I hope nobody in the audience actually does that.
    And if you look at our different sectors of the economy, we 
can do very well in various sectors such as high-tech or 
agriculture, biotech, tourism. And one of those sectors is the 
creative economy.
    In California, where I am from, one in 10 jobs are related 
to the creative economy. One of our largest exports are 
royalties. And it doesn't just happen. You need a legal 
framework to protect creators and also to create incentives for 
all this to happen.
    In fact, when I was in the California State Legislature, 
one of my first laws that I ever wrote and passed allowed 
prosecutors to use nuisance statutes to go after people who 
were pirating CDs at a time when people were selling CDs. And 
it struck me at how much time has changed the ways that songs 
are being consumed.
    So I have a question for you, Mr. Blacc. You had mentioned 
earlier that, out of over 130 million streams over four 
quarters, you received $2,400. If a song is downloaded, do you 
get a different rate, or does that $2,400 include downloaded 
songs in addition to streaming?
    Mr. Blacc. Yes, downloading songs is a different rate 
because it enacts the mechanical royalty, the payment that is 
made to the record label, and then the royalty as an artist 
that I would make from the record label. But as a songwriter, 
the mechanical royalty only.
    Mr. Lieu. And it is a higher rate you would get for a 
downloaded song than a streaming?
    Mr. Blacc. The answer is yes.
    Mr. Lieu. And you get a higher rate to the extent people 
are still buying CDs with your song on it, correct?
    Mr. Blacc. I think the download and the CD would be----
    Mr. Lieu. The same rate. And as the projections show that 
streaming continues to get more and more of the ways that 
people consume music----
    Mr. Blacc. Yes, the only way.
    Mr. Lieu. Your income will be very dependent, solely, 
essentially, on streaming in the future. Is that correct?
    Mr. Blacc. So in the past, we weren't able to decide what 
the mechanical rate was. It was just set by the government. And 
in the future, we won't be able to decide, unless the MMA or 
some legislation is passed, we won't be able to decide what the 
rate is. It is just going to keep dropping, as things move 
further into the digital age.
    Mr. Lieu. Great. Thank you.
    As you sort of look at how music is changing, do you see 
anything beyond streaming? Or do you think that is just where 
we are going to end up, essentially, 5 years from now?
    Mr. Blacc. It is really hard to project what technologists 
are going to create in the future, but I can foresee that there 
may be some system that is going to come later.
    And there is a lot of discussion around blockchain and how 
it helps to record a ledger of how information is distributed. 
I have a feeling that this could be one of the saving graces 
for a lot of parts of the music industry and other artist 
communities.
    Mr. Lieu. Thank you.
    And I yield back.
    Chairman Goodlatte. Thank you, Mr. Lieu.
    The chair is now recognizing the gentleman from Maryland, 
Mr. Raskin, for 5 minutes.
    Mr. Raskin. Mr. Chairman, thank you very much. I want to 
just add my voice to the chorus of people saying that we should 
vote on this today. I love the idea of combining the Music 
Modernization Act and the CLASSICS Act and the Fair Play Fair 
Pay Act into a comprehensive statutory bill of rights for 
musical artists and songwriters and other people in the music 
industry.
    And we have the power under the Constitution to promote the 
progress of science and useful arts, and we should exercise 
that power, because, today, our regime stifles musical 
creativity. It is driving people out of the business because 
they are unable to support themselves and to make a living.
    I wanted to go back to a question that Mr. Deutch had 
mentioned earlier. Are there any arguments really on the other 
side that artists and others involved in the creative process 
shouldn't be compensated?
    The only one that I have ever heard, and I only heard it 
once from someone who came to my office who said, well, music 
should be free. And I thought about it for a second, and I 
said, you know, housing should be free, and utilities should be 
free, and groceries should be free. But as long as they are 
not, musicians have to make a livelihood like everybody else.
    [Applause.]
    Mr. Raskin. So, Ms. Warwick, I wanted to come back to you, 
because you had an interesting colloquy with one of our 
colleagues before. I think it ended on a false note, where he 
said that the idea of getting restitutionary payment, 
compensation for music that was made before 1962 should be paid 
today, that that somehow would violate the ex post facto 
clause.
    So I don't know as much about music as you do, but I do 
know something about the Constitution. The ex post facto clause 
applies only to the institution of criminal charges and 
penalties, new statutory offenses in the criminal field. It has 
nothing to do with the civil field. And I know that robbing 
musicians of their fair payment has been a crime, but, 
presumably, you are not suggesting criminal punishment for the 
people who did this to you, right?
    Ms. Warwick. Well----
    [Laughter.]
    Mr. Raskin. All right, I take it you are talking about 
getting people paid, not putting anybody in prison.
    Ms. Warwick. Absolutely, absolutely.
    Mr. Raskin. I want to ask this question, which is that, as 
Mr. Blacc suggested, this has been kind of a model coalition 
that has been put together to bring this cause to this point, 
and I do want to salute Mr. Collins and Mr. Jeffries and all of 
the members of the committee. Unfortunately, some of us just 
got here this year, so we cannot claim any credit for it. But I 
am thrilled that you have been able to bring it to this point.
    And one of the things that you mentioned about your music 
is you are trying to raise questions of social justice, fair 
payment and compensation for everybody in society, really. And 
I just want to give you the opportunity to say something about 
that, because I wouldn't want anyone to leave with the idea 
that this is just a situation that affects either the top 
musicians in the country, as opposed to all musicians and 
people in the music industry, or just this industry, because 
there are lots of people across the economy who are not getting 
the fair fruits of their labor and their participation in the 
economy.
    Mr. Blacc. Yes, very true. The digital age is not just 
affecting music. It is affecting the film industry, 
photographers, visual artists. And there is a lot that can be 
done as we move forward with copyright to protect their rights 
as well. But outside of the artist community, I find myself 
with my colleagues in L.A. at rallies fighting for the $15 
minimum wage and just trying to fight for a living wage for 
people who work at jobs where their managers are making 
hundreds of thousands of dollars, the bosses and owners of the 
company and the company itself is making billions, and they are 
just unable to make it on a daily basis. But they are putting 
their heart and blood, sweat, and tears into the job that they 
do.
    I think the purpose of the government is to protect the 
weakest among us.
    [Applause.]
    Mr. Blacc. So we all are the government, so I don't have to 
be a Senator or a Representative to exercise my executive power 
of being a protector of my citizen family.
    Mr. Raskin. I will just close by thanking you for your 
excellent citizenship and activism, and for expressing 
solidarity with people across the country who just want an 
economy that works for everybody.
    I yield back, Mr. Chairman.
    [Applause.]
    Chairman Goodlatte. The chair thanks the gentleman, and is 
pleased to welcome last, but certainly not least, the newest 
member of the House Judiciary Committee, the gentlewoman from 
Florida, Mrs. Demings, who has experienced, along with her 
colleagues Mr. Deutch and Mr. Gaetz, about a 35-degree drop in 
temperature coming from Florida to New York today. [Laughter.]
    Chairman Goodlatte. So welcome.
    Mrs. Demings. Thank you so much, Mr. Chairman.
    I just want to comment, first of all, or make a comment to 
what my colleague from Maryland said. As a former police chief, 
I think we should reconsider those criminal penalties for 
people who robbed folks of what they rightfully deserve. 
[Laughter.]
    Mrs. Demings. The time has been well-spent, but I do want 
to just ask a few questions, a couple questions.
    Mr. Blacc, I will start with you. In your written 
testimony, you said that the MMA certainly won't fix all of the 
problems, but it is a significant step in the right direction. 
If you and also Mr. Douglas could just comment on, what are the 
issues where the MMA doesn't go quite far enough?
    Mr. Blacc. Within our organizations between songwriters, 
producers, engineers, there are other issues.
    When songs are uploaded to the Internet, the distributors 
can distribute that music. There is a movement within our 
communities to get proper credit for the work that is being 
done. So Mr. Clink, who has put his hand in many songs, will 
not be represented in the digital stream or download because 
the distributor didn't add his name.
    Now, there is metadata. All of these files can hold a lot 
of information, especially just a few letters, C, L, I, N, K. 
They can hold that, for sure.
    So these are the kind of things. We are not going to put 
all of these little issues into the MMA. We will figure this 
out later. Really, these are the broader strokes that matter 
right now.
    Mrs. Demings. Mr. Douglas.
    Mr. Douglas. Well, this is just a wonderful first step for 
us. I mean, we realize it is a process. It has been a process, 
an ongoing process. But we have to crawl before we walk, and 
walk before we run. So this is crawling, but we have just been 
motionless, and we have been paralyzed for such a long time, 
the fact that there is some movement, that is why we think this 
is a great first step. And once we kind of break this logjam, 
then we can reach out and probably collect some other 
technologies where there needs to be that issue addressed.
    But that is why we think this is just a great first step.
    Ms. Warwick. Can I say something please?
    Mrs. Demings. Yes.
    Ms. Warwick. I am sitting here, and I have a tremendous 
amount of respect for the songwriter, the publisher. I haven't 
heard one word said about the recording artist, me, not one 
word. And I have to address that.
    I am going to take you back to my very first contract with 
Scepter Records, where I was getting a 3.5 cent royalty.
    We are now in an age of whatever this is called. I hate 
this. I am ready to throw it in the garbage every day.
    Mrs. Demings. I feel your pain on that one.
    Ms. Warwick. I try to leave it everywhere I go. I really 
do. That and that thing, the computer, which has taken away the 
ability for songwriters and musicians to be what they are 
destined to be.
    I feel that although everybody that is sitting on this 
panel has said some incredible things about our industry, don't 
leave me out, okay? And I appreciate everything that Mr. Blacc, 
Mr. Clink, Mr. Douglas, and my dear, dear friend Mr. Jones have 
said. I have two sons who are also songwriters and producers, 
so I understand the plight of that.
    However, do not forget about me as the one that brings all 
of that to you, okay?
    That is all I have to say about that.
    [Applause.]
    Mr. Nadler. Will the gentlelady yield?
    Mrs. Demings. I yield to Mr. Nadler.
    Mr. Nadler. Thank you. I just want to comment on the last 
comment by Ms. Warwick.
    That is why, precisely the reasons you stated, why we have 
the Fair Play Fair Pay Act and the pre-'72 provisions of the 
CLASSICS Act and the Fair Play Fair Pay Act, and we are not 
forgetting them.
    [Applause.]
    Ms. Warwick. Okay.
    Mrs. Demings. And I will just close by saying thank you. 
Thank you all for what you have done to just make life better 
and what you continue to do. When I think about music and 
everybody in this room, it plays a major role in every 
significant thing and sometimes not so significant thing, 
everything that we do. Music brings hope to some of the most 
hopeless people, children. Children who are involved in the 
arts, for example, just do better.
    So thank you so very much.
    [Applause.]
    Mrs. Demings. And, Ms. Warwick, it would be damn near 
impossible to forget the artists. Thank you so much.
    [Applause.]
    Ms. Warwick. Thank you.
    Chairman Goodlatte. Thank you very much. This has been an 
excellent hearing and a great cause that all of you have 
represented here today. I want to thank each and every one of 
you.
    I want to thank everyone who is here to participate in this 
hearing with us.
    I want to thank all the members coming from as far away as 
California and Texas and Florida for being here.
    And that concludes our hearing. We have a lot of work to 
do. Let's go out and do it. Thank you.
    [Applause.]
    Chairman Goodlatte. I have some magic words, though.
    Without objection, all members will have 5 legislative days 
to submit additional written questions for the witnesses or 
additional materials for the record.
    Chairman Goodlatte. The hearing is adjourned.
    [Whereupon, at 4:39 p.m., the committee was adjourned.]

                                  [all]


</pre></body></html>
